<html>
<title> - UNITED NATIONS PEACEKEEPING AND OPPORTUNITIES FOR REFORM</title>
<body><pre>[Senate Hearing 114-519]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-519

        UNITED NATIONS PEACEKEEPING AND OPPORTUNITIES FOR REFORM

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 9, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
      
      
      

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-034 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
      


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


              Lester E. Munson III, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
               Chris Ford, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        



                              (ii)        























  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Jones, Dr. Bruce, vice president and director, Foreign Policy 
  Program, Brookings Institution, Washington, DC.................    48
    Prepared statement...........................................    50

Negroponte, Hon. John, vice chairman, Mclarty Associates, 
  Washington, DC.................................................    46
    Prepared statement...........................................    47

Power, Hon. Samantha, United States Permanent Representative to 
  the United Nations, New York, NY...............................     4
    Prepared statement...........................................     7


              Additional Material Submitted for the Record

Responses to questions for the record submitted to Ambassador 
  Samantha Power by Senator Bob Corker...........................    60



                             (iii)
 
                      UNITED NATIONS PEACEKEEPING 
                      AND OPPORTUNITIES FOR REFORM

                              ----------                              


                      Wednesday, December 9, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Johnson, Flake, 
Gardner, Perdue, Isakson, Barrasso, Cardin, Menendez, Shaheen, 
Coons, Udall, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Senate Foreign Relations Committee will 
come to order.
    I want to thank our witness. I know she has significant 
responsibilities right now at the U.N. Security Council. Ben 
and I had a chance this week to meet with her and all the 
members. Quite educational, I hope on both sides. But we 
certainly appreciate you being here, and I will introduce you 
in just a moment.
    Today's hearing will review the United Nations peacekeeping 
operations and explore opportunities for reform to make U.N. 
peacekeeping work better in U.S. national interests.
    As a permanent member of the Security Council and the 
largest contributor by far to the U.N. peacekeeping budget, the 
U.S. has a particular interest in how U.N. peacekeeping 
mandates are set and operations are carried out. The United 
States cannot be everywhere all the time. There is an important 
role for U.N. peacekeeping in supporting U.S. interests for 
security and stability around the world.
    Today's U.N. peacekeeping is evolving in many ways. 
Traditionally, missions have focused primarily on negotiating 
peace agreements, inserting blue helmets to separate 
conflicting parties to implement these agreements, and 
generally monitoring and keeping the peace.
    U.N. peacekeepers now are being asked to take on new and 
difficult responsibilities, such as civilian protection, 
disarming active combatants, or developing the capacity to 
engage on the antiterrorism front. These new missions and 
mandates raise many questions, which we certainly will be 
exploring today.
    What are the risks when U.N. peacekeepers actively engage 
combatants in a warzone? Do U.N. peacekeepers forgo their 
neutrality in these instances? And if so, what are the 
implications for our interests?
    If U.N. peacekeepers are asked to provide logistics support 
in humanitarian crises such as the Ebola fight in West Africa, 
what challenges does that raise?
    I am particularly concerned with recent disturbing reports 
of sexual exploitation and abuse by certain U.N. peacekeeping 
troops. The current U.N. policy is zero tolerance, but such 
abuses continue with disturbing regularity.
    So it is our hope to find some common sense ways to address 
these issues and explore these and other topics, such as the 
U.S. peacekeeping assessment.
    We again want to thank our distinguished witness for being 
here, and I will turn it over to our ranking member for his 
comments.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Chairman Corker. I very 
much appreciate you convening this hearing on an important 
topic, and I want to thank all of our distinguished panelists 
today, extraordinary individuals who have given so much to our 
country. We thank you all for your participation and your 
continued service to our country, particularly Ambassador 
Powers.
    It is good to see you here.
    I have long believed the United Nations at its best can be 
a powerful partner of the United States, advancing global peace 
and security for far less cost and more effectively than if we 
act alone. When you add the U.N. presence, it is a global 
presence, and that is far preferable than having a U.S. or 
sole, one-country presence.
    The U.N. does many things right. They assist more than 60 
million refugees and displaced people fleeing conflict, famine, 
and persecution with lifesaving assistance. It provides food to 
90 million people in 80 countries. It vaccinates 58 percent of 
the world's children, saving no less than 3 million lives.
    Recently, it launched the sustainable development goals, 
which it fully embraced. It could have a powerful impact 
globally on reducing corruption and poor governance.
    In short, the U.N. is capable of and has already done a 
great deal of good in the world. But I believe that the U.N. 
could be stronger and much more effective, if there were 
greater transparency and accountability across the entire 
organization.
    The U.N.'s continuing anti-Israel bias is deeply unhelpful 
to our shared interests in a peaceful, stable Middle East.
    In the case of Syria, the Assad regime continues its 
indiscriminate barrel-bombing and slaughter of civilians. And 
those responsible for war crimes have yet to be held 
accountable.
    But let us be clear. The United States could not ensure 
international security alone nor should it have to. The United 
Nations and specifically the U.N. peacekeeping remains one of 
the best burden-sharing tools we have to help end war, protect 
civilian population, and secure territory.
    By drawing upon the financial and human capacities of all 
U.N. member states, the U.N. peacekeeping helps the United 
States share the responsibility of promoting global stability 
and reduces the need for unilateral intervention.
    United Nations peacekeeping has managed to protect hundreds 
of thousands of innocent civilians. With more than 120,000 
military and police personnel currently serving as part of 16 
missions on four continents, U.N. peacekeepers now represent 
the largest deployed military force in the world.
    There are more U.N. peacekeeping missions today because 
peacekeepers are being asked to do more in increasingly 
dangerous, remote, and deadly operational environments. We need 
to recognize this and make sure that the United Nations and the 
troop-contributing countries are given peacekeepers who are 
placed in harm's way the protective equipment, training, and 
support that they deserve.
    Peacekeepers themselves are often seen as legitimate 
targets for attack by extremist groups and others. We saw that 
recently in the horrific attacks in Mali, where terrorists 
linked to al Qaeda killed 20 people, including an American from 
Maryland. The U.N. peacekeeping mission in Mali has suffered 42 
fatalities at the hands of the militants since January 2013.
    We know that the U.N. peacekeeping is a cost-effective tool 
when compared to other military options. The U.N. annual 
peacekeeping budget only makes up about 0.5 percent of the 
world's total military expenditures.
    I think this is a particularly important moment, 
considering that we are debating the omnibus and dealing with 
the fiscal issues of our country and trying balance our 
budgets, so let me bring it closer to home. The U.N. mission, 
the cost per peacekeeper per year, is about $16,000. In 2014, 
each U.S. soldier in Afghanistan cost $2.1 million. Moreover, 
according to the study by the GAO, U.N. peacekeeping operations 
are eight times less expensive than funding a comparable U.S. 
force.
    This is not to say the U.S. share of peacekeeping dues 
should continue unchanged. I think the chairman has raised a 
good point about reform in the United Nations in the way they 
do their budget. The scaled assessment should be reworked, and 
I am confident that Ambassador Power and the U.N. team are 
focused on that goal as well.
    Maintaining the legitimacy of the U.N. peacekeeping is 
essential. Nothing will erode it faster than the horrific 
reports that we received on sexual abuse by peacekeepers in 
certain missions.
    I have long been concerned about these disturbing reports 
of sexual exploitation and abuse. As the largest contributor to 
the United Nations and as the permanent member on the U.N. 
Security Council, the United States has a responsibility to 
ensure that the United Nations uphold the highest standards of 
professionalism in peacekeeping operations. The failure by the 
United Nations to hold individual peacekeepers, their 
commanders, and troop-contributing countries accountable for 
verifiable allegations of abuse is unacceptable.
    U.N. Secretary General Ban Ki-Moon recently announced a 
series of proposals to combat sexual exploitation and abuse in 
peacekeeping at a meeting of the representatives from over 100 
troop-contributing countries. That is only a start. More must 
be done by both the United Nations and the member states. And I 
look forward to hearing about how the United States can 
continue to push for these effective reforms.
    I look forward to hearing from our witnesses and having a 
robust discussion.
    The Chairman. Thank you, Senator Cardin.
    We have two distinguished panels today, and we want to 
thank all who are here to share their wisdom.
    Our first witness is the Permanent Representative to the 
U.S. Mission to the United Nations, Samantha Power. We thank 
you for being here today with a very tight schedule.
    We also thank you for bringing Haley back, who served so 
well with Senator Coons here and was one of the bright people 
we had here on the committee amongst many.
    But we thank you both for being here. If you could keep 
your comments to about 5 minutes or so, we would appreciate it, 
and then we look forward to Q&A. Thank you.

   STATEMENT OF HON. SAMANTHA POWER, UNITED STATES PERMANENT 
REPRESENTATIVE TO THE UNITED NATIONS, UNITED STATES MISSION TO 
             THE UNITED NATIONS, NEW YORK, NEW YORK

     Ambassador Power. Thank you so much, Mr. Chairman, Ranking 
Member Cardin, for convening this hearing. And thank you all, 
distinguished members of the committee, for making time to be 
here to discuss peacekeeping.
    This committee is acutely aware of the extent to which 
conflicts on the other side of the globe can come back and 
threaten American security. We have seen time and again how 
conflicts can displace millions of people, upend markets, and 
destabilize entire regions.
    All too recently and all too frequently, we have seen how 
such instability can attract and enable violent extremist 
groups, who exploit the vacuum of authority to terrorize 
civilians; recruit new members; and plan, launch, or inspire 
attacks.
    U.N. peacekeepers play a vital role in the international 
community's efforts to address war, violence, and instability. 
As President Obama said in September, ``We know that peace 
operations are not the solution to every problem, but they do 
remain one of the world's most important tools to address armed 
conflict.''
    Peacekeepers can help resolve conflict, shore up stability, 
deny safe harbor to extremists, and protect civilians from 
atrocities, all of which serve core American interests and 
reflect deep American values, while ensuring greater burden-
sharing by the international community.
    This administration has consequently been working 
aggressively to ensure that U.N. peacekeeping operations are 
better able to meet the demands of international peace and 
security, which, as has been noted by both the chairman and the 
ranking member, those requirements have changed considerably 
over just the last 20 years.
    Peacekeepers today are undertaking more missions. The 
number of uniformed personnel has risen from fewer than 20,000 
15 years ago to over 100,000 today.
    They are assuming greater risk. Two-thirds of peacekeepers 
are operating in active conflicts, the highest percentage in 
history.
    And they are assigned broad and increasingly complex 
responsibilities, ranging from disarming armed groups to 
facilitating the safe delivery of humanitarian aid to 
protecting civilians from those who wish them harm.
    Today, 98 percent of uniformed personnel in U.N. missions 
around the world are under orders to protect civilians as part 
of their mandate. This is not your mother's peacekeeping, your 
father's peacekeeping, your grandfather's peacekeeping. It has 
evolved significantly.
    While peacekeeping has never been more important to 
American interests, it has also never been more demanding. And 
that is why, in September, President Obama issued the first 
presidential memorandum on multilateral peace operations in 
more than 20 years, directing a wide range of actions to 
strengthen and modernize U.N. operations, including by building 
partner capacity, providing U.S. support, and leading reform of 
U.N. peacekeeping.
    I just want to briefly, Mr. Chairman, touch on a few key 
lines of effort that we have pursued. These are described in 
greater detail in my written submission.
    First, we are working to ensure that countries with the 
will to perform 21st century peacekeeping, that they have the 
capacity to do so. One way we are doing this is through the 
African Peacekeeping Rapid Response Partnership, or APRRP, 
which President Obama announced in August 2014.
    Through APRRP, the United States is investing in the 
capacity of six African countries that have proven themselves 
leaders in peacekeeping. In exchange, these countries have 
committed to maintain the forces and equipment necessary to 
deploy rapidly.
    This initiative builds upon the Global Peace Operations 
Initiative launched under President George W. Bush, which is 
our primary tool for building partner-nation peacekeeping 
capacity, and it will help ensure that more soldiers deployed 
for peacekeeping missions will be fully prepared.
    I hope that the Senate and House will fully fund this 
important initiative in future years.
    Second, we are expanding the pool of troop- and police-
contributing countries, and bringing advanced militaries back 
into peacekeeping. In September, President Obama convened a 
historic high-level summit, the first of its kind, at the U.N. 
to rally new commitments to peacekeeping, marking the 
culmination of a yearlong effort initiated by Vice President 
Biden at the previous U.N. General Assembly. Forty-nine 
countries participated and pledged nearly 50,000 additional 
troops and police.
    Not only that, more of these troops will now come from 
advanced militaries, who bring with them equipment and 
expertise that is critically needed on the ground. We saw this 
in Mali in January this year, when Dutch attack helicopters 
helped Bangladeshi infantry repel rebels who had opened fire on 
their camp, where civilians were taking refuge.
    The United States is making contributions in this respect 
as well as one part of our unrivaled contribution to global 
peace and security, looking specifically for ways to leverage 
our military's unique capabilities to support peacekeeping 
operations, including by enabling faster deployment by others.
    Third, we are working to ensure a higher standard of 
performance and conduct once peacekeeping contingents are 
deployed, specifically in two critical areas: the complete 
fulfillment of their mandates and the combating of sexual 
exploitation and abuse.
    The additional troops generated by the President's 
September summit will prove invaluable to both goals, by 
allowing the U.N. to be more selective as to which troops it 
deploys, and now giving it the leverage to repatriate poorly 
performing troops and police when necessary, and especially, of 
course, in instances where there are credible allegations of 
sexual abuse.
    With respect to mandate, when peacekeepers deploy in 
volatile situations, they have to be prepared to use force to 
defend themselves, to protect civilians, and to otherwise carry 
out their mandated tasks.
    Too often in the past, peacekeepers have shied away, even 
when atrocities are being perpetrated. A report by the U.N.'s 
internal oversight office in March last year found that in 507 
attacks against civilians from 2010 to 2013, peacekeepers 
virtually never used force to protect those coming under 
attack. Thousands of civilians likely lost their lives as a 
result. This cannot continue, and a growing number of leading 
troop contributors agree. The 50,000 additional troops and 
police should enable more capable, more willing troops and 
police to staff these missions.
    The same is true on sexual exploitation and violence. And 
let me just state the obvious here. We share the outrage of 
everyone on this committee, all the American people who are 
focused on this issue. Peacekeepers must not abuse civilians. 
Sexual abuse and exploitation have no place, it goes without 
saying, again, in any society. It is especially abhorrent when 
committed by those who take advantage of the trust that 
communities are placing in the United Nations, and those 
responsible must be held accountable.
    Addressing this scourge will require continuing the 
important efforts begun by Secretary General Ban Ki-moon to 
strengthen the implementation of a zero-tolerance policy, 
including bolstering reporting and accountability measures, and 
pledging to set up an immediate response team to investigate 
certain cases. It will also require more vigilance and follow-
through from troop-contributing countries.
    There must also be far more transparency in these 
investigations, to track cases and ensure that justice is 
served.
    The U.N. should be able to take advantage now of its newly 
expanded pool of soldiers and police by suspending from 
peacekeeping any country that does not take seriously the 
responsibility to investigate and, if necessary, prosecute 
credible allegations.
    The fourth and final priority, Mr. Chairman, is to press 
for bold institutional reforms within the U.N. itself. We have 
seen the U.N. secretariat make profound changes to 
peacekeeping, from improved logistics and sustainment to a more 
comprehensive approach to crisis situations that integrates 
military, police, and civilian tools. But much, much more needs 
to be done, and we have spearheaded efforts to enact further 
reforms, including longer troop rotations to preserve 
institutional memory, penalties for troops who show up without 
the necessary equipment to perform their duties.
    And we will continue to work aggressively to cut costs. The 
U.N. has already, thanks to U.S. leadership, cut the per-
peacekeeper costs by roughly 17 percent since 2008. We are also 
working to advance the reforms proposed by the Secretary 
General's High-Level Independent Panel on U.N. Peace 
Operations, which are intended to address inadequate planning, 
slow troop deployment, uneven mission leadership, breakdowns in 
command-and-control, and a current set of rules around human 
resources and procurement designed for the conference rooms of 
New York and not the streets of Bangui.
    Let me conclude. In all of the areas I have just described, 
we have seen improvements, and the United States has played an 
instrumental role in making them possible. But there is much 
more to be done.
    We are not satisfied with peacekeepers fulfilling only 
parts, but not all, of their mandates; with peacekeepers 
standing up to protect civilians in some, but not all, 
situations; or with soldiers being held accountable for crimes 
or misconduct some, but not all, of the time.
    The role played by peacekeepers today is too important. For 
the sake of our own interests and security, as well as the 
millions of innocent people around the world whose lives may 
depend on peacekeepers, we will continue working to strengthen 
peacekeeping so that it is tailored for the 21st century 
threats peacekeepers face.
    We appreciate your interest and support and continued 
dialogue on these matters. Thank you.
    [The prepared statement of Ambassador Power follows:]


               Prepared Statement of Hon. Samantha Power

    Chairman Corker, Ranking Member Cardin, distinguished members of 
the Committee, thank you for the invitation to testify today. I am 
grateful for this panel's enduring commitment to American leadership at 
the United Nations and in the world. And I appreciate the rigor that 
your members bring to ensuring the oversight and effective use of our 
contributions to the United Nations--a goal we share. I am grateful for 
the opportunity to discuss why the United States has such a strong 
interest in the success of U.N. peacekeeping and the Administration's 
strategy for strengthening this critical national security instrument.
    First, I will discuss the growth and evolution of U.N. peacekeeping 
over the last decade, including the changing nature of these missions. 
Second, I will summarize the Administration's vision for strengthening 
U.N. peace operations, including by ensuring that troops and police in 
U.N. operations perform professionally and effectively. Third, I will 
describe U.S. support for peacekeeping, including the pledges made in 
the recently-issued Presidential Memorandum on U.S. Support to U.N. 
Peace Operations and at the recent Leaders' Summit on Peacekeeping at 
the U.N.
Evolution of U.N. Peacekeeping
    The United States has a vital interest in strengthening 
peacekeeping to respond to demands that peacekeepers are currently 
struggling to meet. We do not want to live in a world where more than 
9,000 children worldwide have been recruited in less than a year to 
become child soldiers, as happened in South Sudan. We do not want to 
live in a world where religious or ethnic communities who lived 
together for decades in harmony, such as the Muslims and Christians in 
the Central African Republic, are induced to hate and fear one another. 
We do not want to live in a world where violent extremists exploit weak 
governments and commit acts of terrorism, as we have seen in Somalia 
and recently witnessed in Mali. Nor, of course, do America's foreign 
policy leaders, including the distinguished members of this Committee.
    Recognizing that our security and our values prevent us from 
ignoring these conflicts, the question remains: what can America do to 
stop them? Even if the United States has an interest in seeing conflict 
abate or civilians protected, that does not mean that U.S. forces 
should be doing all of the abating or the protecting. As President 
Obama said at West Point last year, ``America must always lead on the 
world stage,'' but ``we should not go it alone.'' It should go without 
saying that we cannot and we should not send the U.S. military into all 
of the places conflict is burning, civilians are hurting, or extremists 
are lurking. Just because we have far and away the most capable 
military in the world does not mean we should assume risks and burdens 
that should be shared by the international community.
    This is where peacekeeping comes in. As President Obama affirmed at 
the U.N. Leaders' Summit on Peacekeeping on September 28, 2015, ``We 
know that peace operations are not the solution to every problem, but 
they do remain one of the world's most important tools to address armed 
conflict.'' When boots on the ground are needed to defuse conflict in 
Congo or Mali, peacekeeping is often the best instrument we have. 
Peacekeeping operations ensure that other countries help shoulder the 
burden, both by contributing uniformed personnel and by sharing the 
financial costs of the operations. Provided that peacekeepers actually 
deliver on their mandate, multilateral peacekeeping also brings a 
greater degree of legitimacy in the eyes of the local population and 
the world. Because missions are made up of troops from multiple 
countries, with strong representation from the global South, spoilers 
and militants have a harder time cynically branding them as having 
imperialist designs.
    The U.N. has been there at critical junctures to consolidate peace 
and security and provide much needed stability after U.S. forces or our 
allies have been deployed for peace enforcement or stabilization 
operations, as in Haiti, Kosovo and Timor-Leste.
    We have a compelling interest in curbing violent conflicts and 
preventing suffering--and we need peacekeeping to work. But precisely 
at this moment, when we recognize the crucial role peacekeeping can 
play in shoring up international security interests, our demands on 
peacekeeping are outstripping what it can deliver. Today, we are asking 
peacekeepers to do more, in more places, and in more complex conflicts 
than at any time in history.
    The United States, during both Republican and Democratic 
administrations, has turned to peacekeeping operations to advance our 
national security interests. There are currently sixteen U.N. 
peacekeeping missions worldwide, made up of over 100,000 uniformed 
personnel, not to mention the 20,000 troops that the African Union 
currently deploys in Somalia. This is up from fewer than 20,000 fifteen 
years ago and 50,000 ten years ago.
    To stress, this is by far the largest number of peacekeepers 
deployed in history. But the numbers only tell a small part of the 
story. Today, two-thirds of peacekeepers are operating in active 
conflicts, the highest percentage ever. Peacekeepers often deploy to 
areas where myriad rebel groups and militias have made clear their 
intention to keep fighting. And the warring parties in modern conflicts 
increasingly include violent extremist groups, who terrorize civilians 
and attack peacekeepers.
    We are also asking peacekeepers to take on more responsibilities in 
support of sustainable political solutions. We ask U.N. peacekeeping 
missions to help with peace processes, assist with re-establishing 
state authority and stabilizing states amid deadly attacks by violent 
extremists, such as in Mali. We ask them to support the safe delivery 
of life-saving humanitarian assistance, such as escorting emergency 
shipments of food and medicine to civilians, as peacekeepers have done 
in South Sudan. We ask them to protect civilians from atrocities, as in 
the Central African Republic (CAR). We ask them to bolster security in 
countries emerging from brutal civil wars, such as in Liberia and Cote 
d'Ivoire, and to bolster regional stability from the Levant to the 
Great Lakes of Africa.
    Precisely at this moment--when we are asking more of peacekeeping 
than ever before and as we recognize the crucial role it can play in 
protecting U.S. interests in just about every mission around the 
world--we see both the promise and the pitfalls of contemporary 
peacekeeping. We see life-saving impact when peacekeepers are willing 
and able to fulfill their mandates and the devastating consequences 
when they are not.
    In the 21st century, the challenges to U.N. peacekeeping have 
changed, and so the international community's response must change with 
it. The United Nations is increasingly central to efforts to bring 
stability to the world's conflict zones, but too many U.N. peacekeeping 
operations are struggling to meet the demands placed upon them. 
Missions suffer from operational challenges, including long and overly 
complicated mandates, inadequate planning, obstacles to force 
generation, slow deployments, weak leadership, lack of critical 
enablers, competing chains of command, uneven commitments among troop--
and police--contributing countries to mandate implementation, and 
political and administrative obstacles to operations created by the 
governments hosting peacekeepers. Additionally, each mission needs a 
strong political dialogue and agreement underpinning its efforts, a 
premise of their success.
U.S. Strategy for Strengthening Peacekeeping
    On September 28, the day of the Leaders' Summit on Peacekeeping, 
President Obama issued a new policy Memorandum on U.S. Support to Peace 
Operations, the first presidential guidance to address U.S. support to 
peace operations in over twenty years. The policy reaffirms the strong 
support of the United States for U.N. peace operations and directs the 
interagency to take on a wide range of actions to strengthen and 
modernize U.N. operations for a new era. Our strategy prioritizes three 
lines of effort: building partner capacity and strengthening partner 
accountability; providing U.S. support; and leading reform of U.N. 
peacekeeping. I will now outline these efforts in detail.
    First, we need to expand and deepen the pool of troop--and police--
contributing countries, and bring advanced militaries back into 
peacekeeping. At the U.N. Leaders' Summit on Peacekeeping hosted by 
President Obama, the Secretary-General and eight other Member States, 
high-level leaders from 49 countries and three international 
organizations made pledges that far exceeded our expectations.
    Twenty-one European countries made pledges, marking a welcome 
return of Europe to U.N. peacekeeping. Malaysia announced significant 
infantry, police, and engineering capabilities. Finland pledged 
multiple military units, including special forces. Chile--helicopters, 
hospitals, and engineering units. Colombia declared its intent to 
deploy multiple infantry battalions over the next few years. And China 
announced that it will establish a significant standby force that will 
be ready to deploy immediately in times of crises.
    Leaders from every part of the world pledged approximately 12 field 
hospitals, 15 engineering companies, and 40 helicopters, as well as 
approximately 20 formed police units and over two-dozen infantry 
battalions. At the summit, and in the days that followed, countries 
committed to providing nearly 50,000 additional troops and police to 
U.N. peacekeeping. If countries deliver on these contributions--and we 
will join the U.N. in ensuring that they do--UN peacekeeping will be 
positioned to improve significantly its performance. The U.N. will have 
the capacity to fill long-standing gaps in operations--from attack 
helicopters to intelligence, surveillance, and reconnaissance units. If 
a new mission is created or an existing one significantly expanded, as 
sadly is sometimes the case, the U.N. will be able to put troops and 
police more quickly into the field.
    Second, we need to ensure that countries with the will to perform 
21st century peacekeeping have the capacity they need to do so. Because 
African leaders see first-hand the consequences of unchecked conflicts, 
several have been at the forefront of embracing a new approach to 
peacekeeping, one that seeks to more effectively execute the tasks 
assigned to peacekeepers and in particular the responsibility to 
protect civilians. The African Union has demonstrated a commitment to 
building rapid response capability on the continent, and the United 
States is leading a coalition of international partners in support of 
these efforts. Last year, President Obama announced a new initiative at 
the U.S.-Africa Leaders' Summit: the African Peacekeeping Rapid 
Response Partnership (APRRP). The United States is investing in the 
capacity of a core group of six countries--Ethiopia, Ghana, Rwanda, 
Senegal, Tanzania, and Uganda.
    The idea is to deepen our investment in those militaries that have 
a track record of deploying troops to peacekeeping operations and that 
are committed to protecting civilians from violence. To give just one 
example, Rwanda's troops were among the first boots on the ground when 
conflicts erupted in the Central Africa Republic. Rwandans understand 
the importance of getting peacekeeping right, having experienced the 
catastrophic consequences of it going terribly wrong. And because 
Rwandans robustly carry out their mission mandates, the people in 
countries where they serve trust them; troops from other countries who 
serve alongside them see what robust peacekeeping looks like; and 
aggressors who would attack civilians fear them.
    The United States remains the largest trainer and equipper of 
military and police contingents deploying to peacekeeping operations. 
We have trained hundreds of thousands of peacekeepers in the past 
decade through the Global Peace Operations Initiative (GPOI), launched 
under President Bush. While we must ensure the GPOI program remains 
robust and responsive, as it serves as our primary tool for building 
partner nations' peacekeeping capacities, APRRP is an important 
supplement. Our military experts will work alongside partners like 
Rwanda to strengthen their institutions and capabilities so they can 
rapidly deploy troops when crises emerge, and supply and sustain their 
forces in hostile environments. In exchange for this support, these 
countries have committed to maintain the forces and equipment necessary 
to undertake those rapid deployments. I strongly encourage the Senate 
and House to fully fund this important initiative in future years.
    Third, we need to ensure that peacekeepers perform what is asked of 
them. Some troop-contributors disagree with the scope of 
responsibilities that the Security Council has assigned their troops. 
These countries sometimes cite the basic principles of U.N. 
peacekeeping, and hearken back to the earliest peacekeeping missions--
in which blue helmets were deployed at the invitation of warring 
parties to observe a ceasefire along a demarcated line, such as one 
between Israel and Syria, or India and Pakistan. In that context, it 
was absolutely vital that peacekeepers had the states parties' consent, 
that they behaved impartially, and that they observed and reported 
infractions.
    These missions are still critical, but for more than twenty years, 
peacekeeping has been evolving. The Security Council first tasked a 
peacekeeping mission with the responsibility to protect civilians in 
Sierra Leone in 1999--in the face of the brutal civil war in that 
country. While it is national governments' responsibility to take care 
of their own people, peacekeeping operations have a vital obligation to 
step in when they fail to do so. This duty is not theoretical. Today, 
10 missions--constituting almost 98 percent of U.N. uniformed personnel 
across the world--are charged with protecting civilians. If 
peacekeeping is to be effective in the 21st century, we must close the 
gap between the mandates the international community asks peacekeepers 
to undertake, and the willingness and ability of peacekeepers to 
successfully execute them. If we do not, it not only puts the lives of 
civilians and peacekeepers at risk, but undermines the credibility and 
legitimacy of peacekeeping everywhere. This is one of the most 
important efforts underway today.
    The good news is that there is a growing consensus around what 
modern peacekeeping looks like. In May, drawing on its direct knowledge 
of what it means when U.N. peacekeepers do not protect civilians, 
Rwanda channeled its lessons learned from the field into a set of best 
practices for the protection of civilians by peacekeeping missions. 
These ``Kigali Principles'' call, for example, for troop-contributing 
countries to ensure that the military commander of a peacekeeping 
contingent has prior authority to use force as needed. When a commander 
has to radio back to capital to seek permission, it may mean not being 
able to react in time to repel a fast-approaching attack on a nearby 
village.
    In the span of just a few months, a diverse group of major troop-
contributing countries have endorsed the ``Kigali Principles,'' 
including Rwanda, Ethiopia, Uganda, Senegal, Uruguay, the Netherlands, 
Italy, Sri Lanka, and Bangladesh. Already, one-third of all troops 
currently serving in U.N. and AU peacekeeping operations come from 
countries that have endorsed the ``Kigali Principles''--and that 
proportion is rising. These principles are a new blueprint for 
peacekeepers--and especially infantry--deploying into volatile 
situations.
    This growing clarity, together with the significant new 
contributions announced at the September summit, can change the impact 
that peacekeepers have in the field. In the past, the scant supply of 
troops and police meant that neither the U.N. nor the countries 
contributing the lion's share of peacekeepers could afford to be 
selective without leaving significant gaps in missions. However, the 
summit pledges of nearly 50,000 troops and police should enable more 
capable, more willing troops and police to staff peacekeeping missions. 
Troop- and police-contributing countries that have qualms with 
particular mandates, or doubts about their capacity to do what is asked 
of them, no longer need to deploy to missions simply because nobody 
else will.
    For its part, the U.N. must demonstrate leadership by strengthening 
its monitoring and evaluation of troops and police in the field. When 
underperformance results from a lack of appropriate training and 
equipping, we must help to build those capabilities over time. When it 
is a matter of misconduct, refusal to follow commands, or implement 
mandated tasks, or take seriously the imperative to root out 
misconduct, particularly sexual exploitation and abuse, the U.N. must 
repatriate those responsible. For the first time in two decades, the 
surplus of troops and police allows the U.N. to do just that.
    Fourth, we need to press the U.N. to make bold institutional 
reforms. Last year, the U.N. Secretary-General appointed a High-Level 
Independent Panel on U.N. Peace Operations to undertake a thorough 
review of U.N. peacekeeping and political missions. The Panel released 
an in-depth report that included reform recommendations, many of which 
align with long-standing U.S. priorities. In September, the Secretary-
General released his report outlining his intentions to implement the 
Panel's recommendations ranging from improved logistics and sustainment 
through its Department of Field Support, to a more comprehensive 
approach to crisis situations that integrates military, police, and 
civilian tools.
    The Administration is currently focused on several key areas of 
institutional reform.
    We are working to strengthen the U.N.'s assessment and planning 
work, which includes: supporting the use of sequenced mandates; 
encouraging the review and revision of conflict analysis tools across 
the system; and, supporting improved assessment analysis and planning 
capabilities. Better analysis and planning and the sequencing of 
mandates not only help to tailor peace operations to better suit often 
dynamic contexts, but we predict could also result in cost savings. For 
example, more tailored peace operations could help ensure that the U.N. 
isn't being asked to deploy expensive state-capacity building 
components before a host-state government has the credibility or 
ability to absorb such support.
    We are supporting efforts to enhance the U.N.'s ability to 
undertake strategic force generation and deploy rapidly. This is an 
area in dire need of improvement, as we have seen in the long lead 
times getting troops into Mali, CAR and South Sudan. Rapid deployment 
of peacekeeping missions can be critical to stabilizing crisis 
situations, yet we have seen continued shortfalls in staffing-up 
missions such as in the emergency surge the Security Council authorized 
for the mission in South Sudan. We must look at what structures and 
arrangements the U.N. needs to best support the rapid deployment of 
peacekeepers and equipment.
    We are encouraging the Secretary-General and appropriate heads of 
U.N. departments and divisions to undertake administrative reform and 
cultural shifts that will empower the field and allow for flexibility 
and responsiveness. The U.N.'s ability to respond to needs in the field 
is hamstrung by burdensome policies and procedures and a culture overly 
concerned with compliance on paper versus outcomes in practice. Getting 
the right leadership is also critical for mission success. The U.N. can 
improve its selection process for senior mission leaders, including by 
prioritizing leadership and management skills, increasing commitments 
to gender diversity among qualified leaders, and developing meaningful 
mandatory training for senior leaders. The U.N. should also rigorously 
assess the performance of senior mission leaders and remove ineffective 
leaders when warranted. We are encouraging these efforts at the U.N. 
and working with the U.N. to enhance its training of senior mission 
leadership.
    We also continue to support vigorously the Secretary-General's 
implementation of his zero tolerance policy on sexual exploitation and 
abuse (SEA). We have been particularly outraged at those especially 
egregious cases of SEA that have been reported in CAR, for example. 
Those who prey on the vulnerable communities they are sent to protect 
undermine the very foundation of peacekeeping. There is no excuse for 
inaction, and we must all do more to ensure those responsible for these 
heinous acts are held accountable.
    I greatly appreciate the leadership you've shown on this issue, Mr. 
Chairman, and am fully aware of how important this issue is to the 
Committee. Like you, I believe that even a single case of SEA is one 
too many. The United States has long been a leader in pushing for 
stronger prevention measures, and concrete steps to ensure 
accountability for those responsible for SEA.
    Despite the horrific incidents that have been recently reported, 
the U.N. has come a long way in recent years in responding to the 
scourge of SEA with strong support from the United States. However, 
there is a lot of work that still remains in preventing and addressing 
SEA. We remain concerned that many SEA perpetrators commit these acts, 
which are often crimes, with impunity and that many SEA victims never 
report such to the U.N.
    In order to address this accountability gap, and to improve 
prevention measures and assistance to victims, the U.S. government is 
instituting a ``full court press.'' We are working with our partners to 
ensure that the Secretary-General remains fully committed and empowered 
to implement this policy. At the President's Peacekeeping Summit at the 
U.N. in September, for example, 42 countries signed onto the Summit 
Declaration, which affirmed support for the Secretary-General's zero 
tolerance policy, and confirmed commitments to rigorous vetting and 
training of uniformed personnel, swift and thorough investigations, and 
appropriate accountability measures and timely reporting to the U.N. on 
all allegations.
    Because we know that SEA is an issue that affects all member 
states, we are developing a whole-of-government strategy to improve 
prevention of SEA and enhance transparency and accountability for 
perpetrators. President Obama's recent memorandum on U.N. peacekeeping 
highlighted the importance of combatting SEA, and some of the 
initiatives that the U.S. government is undertaking.
    To effectively combat SEA, we are working to track individual cases 
where there is information available, following up with the appropriate 
authorities, analyzing the strengths and weakness of current policies, 
and providing support or applying pressure as appropriate to the U.N. 
We are further exploring setting a requirement for rigorous pre-
deployment training in the Secretary-General's zero tolerance policy on 
SEA. And, we will be highlighting instances of SEA in the annual human 
rights report. In addition to elevating incidents of SEA, these acts 
will pressure, incentivize, and enable troop- and police-contributing 
countries to better handle SEA.
    Perhaps the greatest challenge in our efforts to eliminate SEA has 
been the lack of transparency on allegations. Although we need to 
ensure the appropriate procedures are followed and that privacy is 
respected for all those accused of SEA, the U.N. and Member States 
should know the nationality of alleged perpetrators, the status of 
investigations, and the outcome of disciplinary or prosecutorial 
action, or of sanctions imposed by the U.N. Unfortunately, we rarely 
have access to this type of information. Our initiatives with the U.N. 
have been largely focused on increasing transparency in this regard, 
specifically to ensure accountability. The lack of data has been very 
problematic, because it prevents us from following-up with governments 
and fully analyzing the factors that most contribute to SEA: whether it 
is a lack of discipline, cultures of tolerance within missions, or lack 
of training, as these all differ across troop- and police-contributing 
countries and across U.N. peacekeeping operations. It has also been 
difficult to track the U.N.'s follow up on specific cases, since in the 
past we have not known for sure what country is responsible.
    We applaud the Secretary-General's commitment to publicizing the 
nationality of individuals against whom credible allegations of SEA 
have been made in his next annual report on this issue. This idea 
originated in the Secretary-General's 2012 report on SEA, where he 
noted his intention to ``provide country-specific information on the 
number of credible allegations being investigated by Member States in 
reports to the General Assembly.''
    This information will better enable us to use our own diplomatic 
efforts to ensure accountability. Once we know which country's 
personnel have been accused of misconduct, we will have a much better 
understanding of the nature of the problem, the actual size of the 
accountability gap, and how to better target our response. In cases 
where countries have repeated SEA violations, we will be able to work 
bilaterally to address capacity issues and to encourage countries to 
take appropriate action.
    We are also working with the U.N. to improve standard operating 
procedures for SEA prevention, reporting, and investigations. The 
Secretary-General has taken a strong stance and very decisive action on 
SEA. In response to repeated allegations of SEA in MINUSCA, the U.N.'s 
peacekeeping operation in the Central African Republic, he requested 
and accepted the resignation of his Special Representative Babacar Gaye 
in August of this year. His recent reports on SEA in peacekeeping 
outline very detailed steps he is taking under his own authority to 
address SEA. These include: community outreach strategies to increase 
awareness about SEA and reporting mechanisms; establishing Immediate 
Response Teams to preserve evidence following allegations; tighter 
timelines for SEA investigations; and, suspending payments to troop and 
police contributing countries in connection with individuals alleged to 
have committed SEA. We welcome the Secretary-General's leadership on 
SEA.
    Finally, the United States continues to explore ways to support a 
more predictable and flexible funding mechanism to support AU peace 
operations, conditioned on increased AU financing and operational 
capacities, and compliance with U.N. regulations, rules, and policies, 
including financial rules, as well as with international humanitarian 
and human rights law, as applicable. These operations provide a 
creative and oftentimes cost-effective alternative to U.N. peacekeeping 
when environments are particularly volatile such as Somalia or early on 
in CAR.
U.S. Support for U.N. Peacekeeping
    In order to fulfill the first goal outlined above--building partner 
capacity--the United States must continue to show leadership in 
supporting peacekeeping operations. Not only is this support good for 
peacekeeping, it also positions us to be maximally effective in driving 
changes that will strengthen peacekeeping, and deliver greater results 
from our investments.
    As President Obama said in his remarks at the Summit, ``We are here 
today, together, to strengthen and reform U.N. peacekeeping because our 
common security demands it. This is not something that we do for 
others; this is something that we do collectively because our 
collective security depends on it.'' In concert with the other Summit 
participants' pledges, President Obama announced his intention to 
significantly increase the number of U.S. personnel serving under the 
U.N. flag by working to double our contribution of military staff 
officers serving as individuals or teams in U.N. missions.
    Additional U.S. commitments announced at the Summit are aimed at 
supporting U.N. peacekeeping in three key areas. First, to reduce 
response time and support rapid response, the United States is prepared 
to offer access to our unparalleled strategic air- and sealift 
capabilities to support U.N. deployments in crisis situations. Second, 
the United States is prepared to provide engineering support, an 
important enabler of U.N. operations and another comparative U.S. 
strength, which could include technical expertise and making available 
military engineers for specific projects on a project-by-project basis, 
where there is an urgent need that the United States is uniquely 
positioned to address. These units would remain under existing policies 
on U.S. command and control. Third, the United States plans to pre-
position defense equipment to accelerate equipping and deployment of 
personnel to U.N. and regional peacekeeping operations, essential in 
crises. The United States will also factor U.N. and regional 
peacekeeping needs as a priority in determining which countries receive 
appropriate U.S. surplus defense equipment.
    The United States will endeavor to increase its already substantial 
contributions to building the capacity of the U.N. and partner nations 
that contribute to peace operations in the following areas: in-mission 
training and mentoring, technology, leadership training, police pre-
deployment training and counter-IED training and assessment.
    For example, the United States is committing to make available 
mobile training teams on a case-by-case basis for deployment alongside 
partners who are contributing forces and deploying into a peace 
operation. U.S. personnel plan to work directly with U.N. experts to 
identify cost-effective technology solutions for needs in countering 
IEDs, force protection, protection of civilians, collaborative 
planning, information-led operations, rapid deployment of vanguard 
forces, and expeditionary logistics. The United States intends to 
increase its already significant contributions to U.N. police in 
peacekeeping by allocating another $2 million--subject to congressional 
notification--to develop and expand the capability of African partners 
deploying police personnel, specifically to enhance their ability to 
meet the challenges of violent extremism in missions such as the one in 
Mali. The United States is also contributing $2 million specifically 
for counter-IED training and intends to offer to deploy U.S. military 
counter-IED specialists to conduct strategic and operational-level 
assessments alongside select U.N. peacekeeping operations. Importantly, 
these commitments will not require the budgeting of additional funds, 
as they are all either reimbursable by the U.N. or funded within 
existing programs.
    In addition, through the GPOI program, the United States is 
currently helping 50 partner countries and three regional organizations 
build the capacity to deploy to and effectively perform in U.N. 
peacekeeping missions. The GPOI model builds partner countries' 
training self-sufficiency and supports the development of critically 
needed enabling capabilities--such as lift, logistics, and medical 
units. Program activities not only address the short-term requirement 
of providing capable troops to missions but also provide a lasting 
foundation to support the peacekeeping needs of the future.
Conclusion
    Although we remain focused on the unique opportunity for reform in 
2016 and beyond, we should not forget that U.N. peacekeeping is 
stronger than it was two decades ago. The U.N. has improved logistics 
and sustainment through its Department of Field Support by modernizing 
its supply chain and asset management systems; it has strengthened 
lines of communication with headquarters; it has created an inspector-
general function to evaluate candidly the U.N.'s performance; it has 
introduced a capabilities-based reimbursement system for troops; and it 
has developed a far more integrated approach to crisis situations, 
drawing on military, police, and civilian tools.
    In closing, let me reflect on the budget. The lines of effort I 
have just described are all critical to ensuring peacekeeping better 
addresses 21st century challenges. They demonstrate the need for U.S. 
leadership. And to exercise that leadership, the United States must pay 
our U.N. dues in full and on time.
    I understand the frustration that many Americans feel with the 
United States paying a substantial share of the U.N.'s peacekeeping and 
regular budgets. We agree that the formula should be changed to reflect 
the realities of today's world. But, until that happens, if we suggest 
we should pay less and withhold our full dues at this critical moment, 
we will not only go against our commitments, but we will also 
dramatically undercut our ability to achieve needed reforms, undermine 
our leadership and erode our credibility with partners.
    This does not mean we should simply sign over a large check and 
look the other way. On the contrary, as diligent stewards of taxpayer 
funds, over the last six years, we have pressed hard to improve the 
cost-efficiency of peacekeeping and to prevent significant new costs. 
Through U.S.-led reform efforts, the U.N. has cut the cost per-
peacekeeper by roughly 17 percent--that's one-sixth of the cost reduced 
through efficiencies and streamlining. We have also aggressively fought 
cost increases, saving hundreds of millions of dollars per year by 
prevailing on other countries for a more modest increase in the long-
frozen reimbursement rate for U.N. peacekeepers. And we have pressed to 
streamline and right-size missions where warranted by changing 
conditions on the ground. In the Ivory Coast, we have cut the number of 
mandated troops in half, from around 10,000 to 5,000. In Haiti, we have 
reduced the number of mandated troops from nearly 9,000 after the 2010 
earthquake to just over 2,000 today. We were on course to do the same 
in Liberia prior to the outbreak of Ebola. These efforts ensure 
governments do not use peacekeepers as an excuse not to take 
responsibility for their citizens' own security. And streamlining 
missions frees up troops and resources that are needed elsewhere.
    When the stakes are as high as they are in these conflicts--when 
shortfalls can result in atrocities committed, communities uprooted, 
and entire societies split along ethnic or religious lines--getting it 
right some of the time is not good enough. Peacekeeping must be 
consistently outstanding. We will keep working with our partners to 
bring about the kind of reforms upon which the security of millions of 
people around the world may depend. And we will continue to work 
relentlessly to make peacekeeping as efficient as possible without 
undermining its effectiveness, in close coordination with the Congress 
and especially this critically important Committee.
    Thank you.


    The Chairman. Well, thank you very much for those comments.
    Senator Isakson and I were in Darfur years ago and just 
infuriated by the caveats that the U.N. peacekeepers had. They 
could only fire at people when they were fired upon. You had 
women going out and collecting wood from their villages being 
raped, abused, people being murdered by the Janjaweed. Yet 
those caveats remained.
    So we have evolved, as you mentioned. This is not our 
father's peacekeeping mission anymore.
    As we have evolved these missions, though, and people now 
are placing themselves as peacekeepers more in the center of 
conflicts, in some cases taking sides, how has this changed the 
way the U.N. is viewed in these peacekeeping missions? I assume 
you believe this is in our national interests for us to be in 
these missions certainly, I do. But how has this changed the 
way these blue hats are viewed in these areas?
     Ambassador Power. Thank you, Senator Corker. It is an 
excellent question.
    I think one of the lines that the U.N. struggles to walk is 
that it has, on the one hand, peacekeepers that are charged 
with an aggressive enforcement of mandates, which entail 
protecting civilians, not just protecting peacekeepers 
themselves, as was once the case. You have that on one hand. 
Then you have U.N. country programs that often look 
indistinguishable. They are all driving around in white 
vehicles, unarmed, passing out food, providing shelter, trying 
to provide counseling to those who have been victimized by 
sexual abuse.
    So it has been challenging, the blurring of functions 
across these missions. But the only thing worse than 
confronting that challenge of having people in society 
distinguish who does what, is actually people in these 
societies rely on peacekeepers, know that the mandate says 
protect civilians, and have those peacekeepers bunkered and 
more interested, again, in collecting a paycheck and then going 
home than actually being out and about and delivering on the 
promise of that blue flag.
    So, again, it varies per conflict area. I think we have 
come a long way. But as I noted, the statistics are not 
inspiring. I mean, there are still many troop-contributing 
countries who send their troops in without the very strict 
guidance that you will be sent home if you do not enforce the 
mandate you are given.
    The Chairman. Yes. I appreciate the comment Senator Cardin 
made about the cost. But, as I understand it, for some of these 
countries, even though the cost to us is far less than having 
U.S. soldiers there, the pay for these soldiers is far greater 
than they would otherwise receive in their own countries. And, 
actually, if I understand correctly, that money goes to the 
national governments of those countries. And so these countries 
are benefiting financially in sending troops there.
    Is that correct, in some cases, in some of the lower income 
countries? And is that feeding this situation of actually 
having troops there that are not, if you will, carrying out 
their mandates in an appropriate way, with soldiers not 
qualified or trained and not properly equipped? Talk to us a 
little bit about what is driving having folks within the 
peacekeeping missions that are that are certainly not 
conducting themselves in a professional manner.
     Ambassador Power. Well, thank you, Mr. Chairman, again. It 
reflects a real understanding of the dynamics in some of these 
missions.
    Again, the performance is uneven. The motivation is uneven. 
The incentive for troops is uneven. If you take, for instance, 
Rwandan peacekeepers, who do get a more substantial stipend by 
serving in peacekeeping missions than they might if they were 
at home, but they are totally driven by what happened in their 
country 21 years ago and actually view protecting civilians as 
a way of showing the world what should have been done when the 
genocide unfolded in Rwanda.
    Contrast that with other troops, again, who institutionally 
are not given the guidance from capital that they need to be 
out and about, that, yes, there are risks entailed with 
patrolling, but there are risks also that are entailed by being 
bunkered.
    I think on the question, the very specific question of the 
stipend, as Senator Cardin said, this is a very good deal for 
the American taxpayer. These are extremely difficult 
environments, not only because of the risks of militia and 
government forces targeting peacekeepers as they are out and 
about, but also just the conditions in terms of logistics, 
access to water. I mean, these are missions that are not 
expending resources in the manner that our missions do when 
they deploy internationally. The logistic tail is not nearly as 
fulsome.
    So I think it is important to incentivize their 
participation. Some countries are doing it because they are 
able, again, to secure additional resources that they are 
investing in ways that sometimes we do not have full visibility 
into, sometimes in professionalizing their militaries, 
sometimes in other parts of their government.
    But I think Senator Cardin's point is very, very important. 
We are getting a lot out of the 100,000-plus troops who are 
active in these conflict areas. These are places where, in some 
instances, if you look at Mali or Lebanon, places that are 
really cutting-edge theaters in terms of terrorism and 
extremism, and if it weren't for U.N. peacekeepers who were 
there putting their lives at risk, it may come to the United 
States at some point in order for us to advance our security.
    The Chairman. As it relates to the issues of the abuse that 
has taken place that is, obviously, abhorrent, in fairness, I 
think people on both sides of the aisle have concerns about the 
U.N.'s ability to actually put reforms in place. And we 
understand how the U.N. operates, and I know you talked about 
the leader's desire to create reforms. We sent a letter 
suggesting that we have onsite court marshals by the countries 
to handle peacekeeping soldiers accused of crimes be tried, by 
the way, under their own country military preocedures to reduce 
impunity. We also made some other suggestions.
    What is your sense that those types of reforms can be 
implemented, relative to peacekeeping?
     Ambassador Power. Well, as Ambassador Negroponte behind me 
I think will attest, through the life of the U.N. you have a 
challenge, always, on reform, in the sense that there are two 
places you have to secure--will and follow-through.
    The first is with the countries that comprise the U.N. So 
every troop-contributing country to peacekeeping has to be 
prepared to look at the kinds of ideas that you put in your 
letter that we have been pushing in new York and implement in 
their own military changes to ensure follow-though, oversight 
in the first instance, follow-through on investigation, and 
accountability, whether a court martial or some kind of 
prosecution in civilian court.
    And again, there is probably no one-size-fits-all solution, 
because every country has its own set of procedures, again, for 
following up on abuse of any kind.
    Then there is the U.N. itself, which has to be much 
aggressive in shining a spotlight on those countries that are 
not taking the steps that are needed.
    I think that we have seen improvements. This is, again, not 
something one should cite as an improvement. It should never 
have been the case that it was otherwise. But those individuals 
who were alleged to be involved in sexual abuse now are not 
being paid by the U.N. They are being recalled to their 
capital. Training and vetting now is changing, so that there is 
training on preventing sexual abuse and exploitation.
    You had an idea, I believe, in your letter about a claims 
kind of commission. I think the U.N. is looking at creating a 
victim support trust fund, which is something, of course, we 
would wish to support as well. It is going to require going 
back to member states and getting resources to put into that, 
but maybe some of the docked pay of those against whom there 
are allegations could be used in service of such a fund. And 
then I think having more aggressive onsite investigative 
capacity, so that less time passes between an allegation and an 
actual follow-through.
    Lastly, the two aspects of reform come together. In order 
to secure meaningful reform that actually matters for potential 
victims or people who have already been victimized, there has 
to be more transparency between what is actually going on in 
the field and then what we are made aware of in New York.
    Too often, we hear from NGOs or from journalists about 
sexual abuse and exploitation, rather than from the U.N. 
itself. And if we are to go to a developing country and try to 
enhance their capacity, their training on the front end, their 
capacity to investigate on the backend of an allegation, we 
have to know who has been accused of doing what at what period, 
and be in a position to offer support.
    If there are countries who are shirking their obligation to 
carry out investigations, we have to know so that we can look 
at our bilateral leverage and whether we might suspend some 
forms of assistance, if, in fact, there is a recurrent pattern 
of not actually taking seriously the zero-tolerance policy.
    The Chairman. Well, thank you. My time is up. And as a 
courtesy, I want to move on.
    I do hope through questioning at some point and--I know the 
President has made additional pledges to the U.N. beyond our 
normal peacekeeping budgeting. I hope at some point it will 
come to light as to where those resources are planned to come 
from. But thank you again for being here.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    And thank you, Ambassador Power, for your service to our 
country.
    As I said in my opening statement, I am a strong supporter 
of the mission of the United Nations and the incredible 
progress it has made in global issues. I want to talk about 
transparency and accountability. It has come up quite a bit on 
several subjects.
    One of the, I think, clearest ways to try to help the 
safety of civilians is to hold President Assad of Syria 
accountable for violating international war-crime-type 
activities. So do we have your commitment, as our Ambassador in 
the United Nations, that we will seek full accountability by 
President Assad for the war crimes that he has committed in any 
of these negotiations that take place in regard to the 
resolution of Syria?
     Ambassador Power. Thank you, Senator.
    Well, let me say that one of my more unsuccessful days in 
my office, since this body was good enough to confirm me for my 
job, was pursuing a referral of the war crimes and crimes 
against humanity carried out in Syria to the International 
Criminal Court. That was a resolution we brought to the U.N. 
Security Council. Notwithstanding our own nonparticipation in 
the ICC, we believe that is a venue that should be looking at 
chemical weapons attacks and barrel-bomb attacks and systematic 
torture. And, of course, that effort at a referral was vetoed 
by Russia, a veto supported by China.
    Senator Cardin. I do understand there are going to be 
negotiations that will involve the United States. And the 
United States is going to have to sign off on those 
negotiations. Do I have your commitment that your position at 
the United Nations will be to hold President Assad accountable 
for the type of activities you just described?
     Ambassador Power. The ultimate settlement in Syria is 
going to be between the opposition and the Syrian Government. 
The United States position on accountability I hope is well-
known. We are absolutely supportive and have been aggressively 
supportive in building an evidentiary base so as to ensure that 
Assad and other people responsible for war crimes are held 
accountable.
    Senator Cardin. It is not up to the government and 
opposition to determine whether a person has violated 
international standards on conduct of war. War crimes are 
global. It is global accountability.
     Ambassador Power. I think there are two separate issues. 
One is what is the standard or the threshold question for where 
accountability should be provided or whether prosecution or a 
truth commission, the whole set of tactical question about how 
accountability should be pursued.
    There is a related, overlapping question of what the terms 
of a political settlement would be. I mean, this is not 
something that is on the verge of happening, so I think the 
details on accountability have not yet been fleshed out, and it 
is something we should consult on.
    But I want to underscore that the final agreement has to be 
something that both the opposition and the government can get 
behind.
    Senator Cardin. I understand that. It does not quite answer 
my question.
    Let me make my position clear, and I think the members of 
this committee. If President Assad is not held accountable, 
there will not be support for any solution in regard to Syria. 
I will just make that pretty clear from the beginning.
    Let me talk to issue number two on transparency and 
accountability. The chairman has already talked about that, the 
abuse allegations. If this is not done in an open manner, where 
there is complete understanding and disclosure of what is 
taking place, the confidence factor of those responsible for 
these abuses being held accountable will not be there.
     Ambassador Power. I agree completely. I mean, I am not 
sure what to add.
    As I said, there has been insufficient reporting back to 
the Security Council. We have now taken sexual abuse and 
exploitation and made it an issue to be discussed in the 
Security Council. The Secretary General has now committed to 
reporting back.
    Senator Cardin. And I have seen the specific 
recommendations, and they are good. But you have to follow 
through on it, and it has to be done in a way that the 
international community, the activists, those who are following 
this, can be confident that those who are responsible have 
truly been held accountable, so that this will not happen in 
the future, will not be tolerated in the future. You said zero 
tolerance, which we agree.
    That is, I think, the important point, that it is not just 
a closed investigation, but that we have an open closure of 
this issue and a commitment on how to go forward on how these 
matters will be handled.
     Ambassador Power. I think right now, Senator, it is very 
fair to say that victims who come forward do so at their own 
peril, and do not do so with confidence that having taken that 
risk, having potentially ostracized themselves in their own 
communities, that there is even going to be accountability on 
the backend. That has to change entirely. I suspect if it does 
change, you may well see more people coming forward.
    Senator Cardin. So let me get to my third point on 
transparency and accountability, and that is the budget system 
at the United Nations. It is anything but open and clear and 
transparent. That is nothing new. It has been that way for a 
long time.
    It is hard for me to understand why our assessment on the 
peacekeeping is 28.36 percent, if I am correct, which is almost 
three times higher than the next country and is significantly 
higher than our general allocation for the U.N. budget.
    That does not seem to me to be a transparent way to budget. 
So can you just briefly inform us as to the U.S. position in 
regard to a fair allocation of the U.N. budget in an open and 
transparent manner?
     Ambassador Power. Thank you, Senator.
    The formula on the U.S. share of the peacekeeping budget is 
a very complex formula. Let me say in brief that it is some 
combination of our share of the global economy plus a premium 
that we pay by being a permanent member of the Security Council 
and, particularly with the veto, getting to dictate whether a 
mission comes into existence or whether it does not, along with 
the other permanent members as a whole, along with the rest of 
the Security Council. So we pay a premium for being a permanent 
member.
    We were able to secure the cap on our regular budget. The 
formula would actually have us pay at a higher rate if not for 
the 22 percent cap that Ambassador Holbrooke secured now going 
on 15 years ago.
    The one thing I want to stress is that our emphasis is on 
ensuring that countries that are contributing more and more to 
the global economy are paying more of their share. We are in 
the midst of scales negotiations now on our share of the 
peacekeeping budget. Our emphasis, again, has been on ensuring 
countries, you can see their economic growth, but you do not 
see a correlation in terms of their contribution.
    The Chinese contribution to peacekeeping has more than 
doubled in the last 10 years. And I think we can anticipate 
that the Chinese share is going to be up around 10 percent, 
which would be a tripling of its share. Similarly, the Russian 
contribution has doubled. Again, China and Russia being two of 
the five permanent members on the council.
    Senator Cardin. Well, we should point out that China is 
still about one-fourth of the United States, less than one-
fourth. And Russia is about one-eighth of the United States.
    It just seems to us that that 22 percent cap, we understand 
that and that was well-deserved, the way that came out. It 
looks like the United Nations is equalizing through the 
peacekeeping percentage and that the 22 percent cap is being 
violated because of our higher contributions to the 
peacekeeping efforts.
    I just urge you that the more transparent this process, the 
better it is going to be, I think, received politically in our 
country. And we do think the 22 percent is a fair number. We 
think it should be honored and be honored in the peacekeeping.
     Ambassador Power. I just want to underscore that when the 
agreement was secured on the 22 percent cap, no similar 
agreement was secured as it related to peacekeeping. In fact, 
having the 22 percent cap actually helps us in the peacekeeping 
realm because 22 percent becomes the baseline on which these 
premiums are agreed to.
    I want to stress, we share the same objective. We want to 
get other countries to step up and pay their share. We still 
believe that if you look, again, at what this means for U.S. 
national security--I think this is, again, a version of the 
argument you made at the beginning--that even when you compare 
it to NATO, where the United States bears the lion's share of 
defense investments, that having the rest of the world paying 
72 percent of the peacekeeping budget is a good deal for the 
American taxpayer.
    Senator Cardin. And my last point and I hope this will be 
covered, as the chairman said, by others, the safety of 
civilians is critically important. You stressed the increased 
number commitment made in the meeting in September.
    It seems to me it is not a matter of numbers of personnel. 
Do they have the will to go in and stand in front of civilians 
to protect them? We have not seen that.
    So I am not sure I was comforted by your reply that we have 
greater capacity by number. If we do not have greater capacity 
by will, the civilian population is going to be at great risk.
     Ambassador Power. If I may, Senator, just respond briefly.
    The point that I emphasized in my testimony was that we 
have succeeded now in getting contributions, or commitments, I 
should say, not yet contributions, from advanced militaries.
    Europe had gotten out of peacekeeping, by and large, over 
the course of the last 20 years, and we think it is really 
important that they get back in. There is no necessary 
correlation always between being an advanced military and 
having the political will to put yourself in harm's way to 
protect civilians.
    But we think that, again, giving the U.N. the choice--now 
it has a pool from which it can choose. And if there are people 
who show insufficient will and want to spend more time in their 
bases than out and about protecting civilians, we think having 
this pool of forces, which include, again, more professional 
and advanced militaries and better aviation and engineering and 
infantry capabilities, giving the U.N. that selectivity is 
going to mean over time that the performance of these 
peacekeepers is going to improve.
    So numbers alone do not mean anything, if you have 50,000 
commitments of people who do not have political will. But we 
see in that pool, actually, substantial commitments from those 
we think do have that will.
    The Chairman. Before turning to Senator Perdue, I just want 
to thank the ranking member for bringing up an issue that is 
brought up consistently, certainly, on our side of the aisle. I 
want to thank him for that.
    I do want to just emphasize that with NATO, which I know is 
not in your jurisdiction, we have become the provider of 
security services. Our NATO allies, generally speaking, are the 
consumer of security services.
    And the same thing is happening with peacekeeping at the 
U.N. I know it is a different set of actors.
    But the very people that stymie our efforts to pursue our 
interests--China, for instance--are taking advantage of us with 
respect to sharing the peacekeeping costs. So yes, it is in our 
U.S. national interests that we have peacekeeping missions and 
that we have stability and security around the world. But I 
think we continue to be not as good as we should be at forcing 
other nations to also be responsible.
    So I want to thank Senator Cardin for bringing this 
important issue up. It is infuriating--infuriating--to have the 
lack of transparency that exists at the U.N. I think, over 
time, it will erode support. Such support is already not 
particularly high because of the many issues we see going 
unattended, like not dealing with the ballistic missiles that 
are being fired by Iran in violation of UNSCR 1929.
    So I would just say, I am glad there is bipartisan concern. 
I hope that you can address it.
    With that, Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman.
    Let me also echo that. I want to compliment the ranking 
member for continuing to bring this up. I wanted to talk about 
that just in a second.
    Right now, we are spending about $2 billion just in the 
peacekeeping force for the United States. I think that is our 
contribution. Because of the assessment disagreement, we are 
some $345 million in arrears, I think, in terms of what the 
U.N. says we owe them.
    I would like to point out also, Mr. Chairman, that it is 
not just the percentages here in relation to the size of the 
GDP. Also, I think, it should be taken into account the 
percentage of GDPs in these countries that are spent on their 
own military. That also bears to the global security situation.
    So I think given the situation we have the in the U.S., 
Madam Ambassador, in the last few years, 35 percent to 40 
percent of what we have been spending is borrowed, I think this 
is a very timely time to have that really serious conversation 
in the U.N. I applaud you guys for doing that.
    I have two quick questions.
    First, I want to thank you for what you are doing. Given 
your high school years in Georgia, we claim you and we are 
proud of what you are doing.
    So I want to talk about Hezbollah, and I want to talk about 
Lebanon in just a minute.
    You know, in 1978, UNIFIL was created there as the interim 
force in Lebanon. Some 12,000 troops are there from the U.N. 
Resolution 1701 in 2006 strengthened the mandate there to 
monitor and to preclude the illegal transport of weapons into 
Lebanon. And yet we know today they have an estimated 120,000, 
150,000 rockets, some of these very sophisticated guided 
weapons. It is very troubling.
    So it looks to me like, if that mandate was directed to 
keep weapons out of Lebanon, they are failing against that 
mandate.
    Can you talk a little bit about their current role there? 
And what is their role against 1701? And then we have had 
reports that there have been threats around reprisals if they 
report violations and so forth. What can we do to strengthen 
UNIFIL there and to preclude Lebanon from the illegal transport 
of these dangerous weapons?
     Ambassador Power. Thank you.
    UNIFIL has, I think, played an ameliorative role since 2006 
in calming the situation, but there is no question that 
Hezbollah has been able to maintain and expand an arsenal. And 
we have and continue to urge UNIFIL to be more aggressive in 
patrolling, in monitoring, in speaking out about violations of 
the UNIFIL mandate.
    And I think that what you have seen, actually, in recent 
months is at least more transparency on the part of UNIFIL. I 
mean, part of the challenge here is, as we know from 
confronting terrorist organizations in other parts of the 
world, when you are not at war with those terrorist 
organizations, you are using political pressure, particularly 
by Lebanon's own sovereign institutions, which are themselves 
very weak, as we know from the current paralysis in Lebanon. 
You are shining a spotlight. You are trying to ensure 
interdiction of weapons before they even get into the theater 
in question.
    So UNIFIL is not a perfect fix for everything that ails 
Lebanon or for the threat posed by Hezbollah. But it has a 
responsibility to be vocal and to take very seriously its 
reporting mandate, also so countries in the region, including 
our friends, know what is happening in an area from which 
threats have come routinely in recent decades.
    Senator Perdue. Also, let me just ask you to add a comment 
or two about Syria. The U.N. Disengagement Observer Force, 
UNDOF, has actually withdrawn from the Golan on the Syrian 
side, because of the fighting there. Can you speak to their 
role now? And how are they interacting with IDF in that?
    And I have one last question.
     Ambassador Power. Thank you.
    I mean, you are right that there has been a 
reconfiguration. This is something UNDOF has done in close 
consultation with the Government of Israel. Given the stakes 
here, it is a response to the fact that al-Nusra made advances 
on one side of the line. And right now this is----
    Senator Perdue. They actually kidnapped some of the U.N. 
forces.
     Ambassador Power. Exactly, Senator, they did. And the 
release of those forces had to be negotiated.
    And I will say, even that incident showed, it is not the 
same as civilian protection, but an unevenness in how the 
different units responded, which again is life in the U.N. Some 
holding onto their weapons, refusing to be cowed. Others 
handing over their weapons and, unfortunately, in a manner that 
left UNDOF weaker and where those weapons had to be 
replenished.
    But we again view this as a temporary relocation. We still 
believe the prior configuration is the stabilizing 
configuration. But I think the Israelis are well-aware as well 
that the circumstances do not lend themselves to putting the 
observers on the other side of the line.
    Senator Perdue. The last question I have with the time 
remaining, Ambassador, the chairman mentioned it, is on the 
violations of Iran. We have been concerned since the JCPOA that 
Iran would violate our agreement incrementally. They are 
violating the U.N. agreement not incrementally, but in a major 
way--these are Resolutions 1929 and 2231--with the launch in 
October. And then we have reports in the last week or so of a 
second launch.
    What is the U.N. doing in relation to those violations and 
the sanctions that back those up?
     Ambassador Power. Thank you, Senator. Yes, this is 
something that I have had occasion to talk to the chairman 
about. And it is music to a U.N. Ambassador's ears when 
Resolution 1929, Resolution 2231 just roll off the tongue of 
Members of Congress.
    Resolution 1929 has been an incredibly important foundation 
to the international sanctions regime. The ballistic missile 
launch from October is a violation of 1929. As soon as we 
confirmed the launch, we brought it to the Security Council. We 
now are going to be discussing it on Tuesday. The U.N. 
machinery always works slowly.
    The panel of experts is looking at it. We have provided all 
the information that we have on it.
    And, in a way, the Security Council is an important venue 
for increasing the political costs on Iran when they violate 
Resolution 1929.
    I would note, of course, that the JCPOA is aimed at 
dismantling Iran's nuclear weapons program, so that the threat 
that Iran poses in any aspect of its military is much 
diminished.
    The Security Council sanctions body operates by consensus. 
This is something that over time benefits the United States. 
But on something like that, it means we have to convince all 
members of the committee also to support our desired 
designations or any further form of accountability.
    Senator Perdue. So what is the U.S. trying to move forward 
in terms of strengthening the sanctions?
     Ambassador Power. Well, it is the U.N. machinery. We have 
to get the report back from the panel of experts. We will 
discuss it in the committee. And then we will look at what the 
right tool is.
    I think it is very important, also, to look at the 
bilateral tools we have. We maintain sanctions, as you know, 
and will, even after implementation day, on ballistic missiles, 
on counterterrorism, on human rights. And I think we many of 
the individuals involved in their ballistic missile program 
have already been sanctioned, as you well know, over the years. 
So trying to secure a nexus between this launch and any 
particular individual entity is a challenge that we need to 
take on.
    But I think looking at the Security Council and our 
bilateral tools as complementary is very important in this 
regard.
    Senator Perdue. Thank you. Thank you again for your 
service.
     Ambassador Power. Thank you, Senator.
    The Chairman. Thank you.
    Senator Cardin and I both emphasized with the Security 
Council 2 days ago that, look, let us face it. The possible 
military dimensions piece, we thought they might get a D-. They 
got an F. A total hoax. A total hoax.
    Non-action here is just going to empower them to continue 
to violate. And I think what the Ambassador just said is the 
U.N. is going to do nothing--nothing--because China and Russia 
will block that from occurring.
    So I do hope they are preparing their bilateral efforts.
    It is disappointing that, again, we provide the resources 
that we do, and yet we have countries that will not cause other 
countries to live up to their obligations and block that. So it 
is very disappointing.
    Senator Coons?
    Senator Coons. Thank you, Chairman Corker and Ranking 
Member Cardin.
    And thank you, Ambassador Power, for your tireless and 
dedicated service, your advocacy for human rights, your 
leadership in representing us at the United Nations, and your 
passion for the difficult and demanding mission that you are 
carrying out on behalf of our Nation.
    I share the concerns expressed by many colleagues about the 
active enforcement of the JCPOA and ongoing work to enforce 
U.N. Security Council resolutions.
    I was pleased to hear there is an upcoming meeting of 
finance ministers around the U.N. Security Council and look 
forward to continuing to work closely with you and Secretary 
Lew and others in the administration to make sure that we are 
using all the tools we can to enforce the sanctions that remain 
in place and to re-impose sanctions, should Iranian behavior 
demonstrate the necessity of doing so.
    I have had the opportunity to visit U.N. peacekeepers in 
the field in a number countries, and have seen both the 
positive that they can accomplish in countries like Liberia and 
the DRC, and some of the very real challenges, particularly 
where, as you noted in your opening testimony, there is a 
disconnect between the mission to protect civilians and the 
training equipment, leadership, and inclination or will to do 
so.
    So start, if you would, by just focusing on whether there 
is a mismatch between U.N. Security Council mandates and what 
troop-contributor countries are really trained and prepared to 
do.
    I was very encouraged by the President's leadership in 
renewing a call to more advanced militaries to deliver not just 
logistics and intelligence and supplies, but trainers and 
troops.
    How do we connect the mandates, the mission, and the 
capacity to deliver in the field?
     Ambassador Power. Thank you, Senator.
    Let me come back, maybe if I could, just by way of response 
to something Senator Corker mentioned before, which is the 
contrast with NATO. I mean, I just want to underscore this 
really is an example where we have national security interests 
in peacekeepers, in troops from other countries, performing 
ably. This is not a NATO situation where we are carrying a 
disproportionate share of the troop burden. We are carrying a 
large share of the financial burden. And that is something, 
again, we are working to ensure is allocated more fairly.
    I think on the mandate troop-contributor disconnect, which 
is real, and I think it is real across the board, the first 
thing you have to do is get more quality troops. It has been, 
as you know well, a supply-driven market insofar as the U.N. 
basically goes begging bowl in hand to different countries. 
There is no standing army that exists in New York. The 
Secretary General does not have anything at his disposal beyond 
what he can extract from U.N. member states.
    That process had yielded a very uneven set of troops and 
police to participate in these missions, some who have 
extensive military experience at home and we know are capable 
troops, but once they get in a peacekeeping setting, they do 
not fundamentally believe in a civilian protection mandate. 
They want to go back to traditional principles of peacekeeping, 
the way peacekeeping was done back in the 1970s and 1980s. And 
that is just not the world we are in.
    So I think the first answer is you increase the 
sophistication, the training, the professionalization of the 
troops, and there is going to be an effect on the ability to 
perform the mandates.
    But the second answer is on us, as a permanent member of 
the Security Council, which is, there needs to be more 
prioritization in the way that these mandates are put in place. 
It is hard in the real world to prioritize, because you look at 
a situation like that in South Sudan or that in Congo, and what 
of the tasks that those peacekeepers are slated to perform 
would you give up? Would you give up demobilization? Would you 
give up security sector reform? Would you give up human rights 
monitoring? Would you give up attention to child soldiers or 
sexual violence? Of course not.
    So you need to make sure that the missions are right-sized. 
You need, maybe, to do some sequencing in terms of building out 
some of those capabilities over time. And the U.N. country team 
and our bilateral assistance also needs to be involved in 
strengthening state institutions, because fundamentally whether 
it is the Central African Republic or eastern Congo or South 
Sudan, U.N. peacekeepers de facto are having to perform the 
work of states, because the states themselves are so weak.
    And so, again, there is no panacea. And for all of the 
complaints that we have about U.N. peacekeeping, I would 
challenge all of us to imagine what any one of those countries 
would be like without this somewhat stabilizing presence. But 
it is not going to be a cure-all for as long as you have state 
institutions that do not function, or leaders that are corrupt, 
or militia on the loose who are interested in carrying out 
horrors against their civilians.
    Senator Coons. I have seen exactly those challenges in the 
countries I referenced, among others. So I continue as an 
appropriator to advocate for funding peacekeeping and for 
dealing with some of these challenges. So it is very 
encouraging for me to see your engagement and hard work on 
reform, because for this to be cost-effective and yet reflect 
our values, we need to make some real progress in the areas 
around accountability and protection of civilians that you have 
referenced.
    Let me just ask sort of a last question and then take what 
time you have left to answer. I am concerned about sort of 
growing the universe of capable peacekeepers, both in Africa 
and globally. China made a pledge of a standby force of 8,000 
peacekeepers, and I am interested in what you think is the 
future, where they will or will not be deployed, what this 
commitment means. And I am concerned about the African Union 
and A-Prep, and would love to hear how you see that playing out 
going forward, and how we can sustain that investment in a 
continent-wide force.
     Ambassador Power. Thank you.
    Well, again, I just want to stress how unusual President 
Obama's personal leadership on this has been. And he has 
basically told us that anything he can do to ensure that these 
commitments are followed through on, he is prepared to invest 
his own time, and the Vice President the same.
    So we are dealing with a set of challenges at a level that 
I do not think we have seen before, and with a degree of 
aggressiveness that we have not seen before from the United 
States, notwithstanding the fact that, again, on a bipartisan 
basis I think successive administrations have seen the value of 
this tool in the American and multilateral toolbox.
    I think that the A-Prep and the China question kind of come 
together a little bit. We have a major issue in terms of the 
delay between the time a mandate is given a U.N. peacekeeping 
force and the time in which troops and police are deployed into 
theater.
    Now again, some of this just goes back to the troop-
contributing countries and their ability to turn on a dime, and 
train, and get configured, and get their equipment all lined 
up.
    A-Prep is designed to take the six militaries, all of whom 
are have a good record within peacekeeping of being aggressive 
in protecting civilians and having the political will to go to 
dangerous places, and we aim to then ensure through deepening 
our provision of equipment and the particular forms of training 
we offer, that they can get into the theater more quickly than 
they have been up to this point. A lot of them lack their own 
ability to lift themselves, so sometimes we have to be 
involved, as we were in the Central African Republic for the 
Burundians and Rwandans, to swoop in and actually carry people 
into harm's way. But they need to acquire, over time, the lift 
and the self-sustainment, and, again, this ability to if not be 
formally on standby, to be ready to go when the 911 comes.
    China's commitment of 8,000 troops is a very large piece of 
business and was a very significant announcement out of 
President Obama's summit. I do not think we, yet, have a sense, 
nor does the U.N., of how they imagine allocating that set of 
forces over time.
    Right now, they have just deployed their first infantry 
battalion ever, and that is in South Sudan. The reports are 
quite promising in terms of how active those troops are, out 
and about, but also protecting civilians in the displaced 
person camps.
    So we need to look and see how the U.N. chooses to use that 
commitment.
    Rapid response, if that were something that China could put 
on offer, where you could actually lose less time between the 
time the international community comes together with a 
consensus that a mission is needed and the time when troops 
show up. I mean, in South Sudan we are 2 years after the 
original deployment, and they are still not at full troop 
strength. And that is a recurring pattern. So we would welcome 
rapid response.
    Of course, we also need to make sure that any peacekeeper 
that deploys has the mindset where they are willing to protect 
civilians and put themselves at risk for the sake of the 
mandate.
    Senator Coons. Thank you, Madam Ambassador.
    Thank you, Chairman.
    The Chairman. Thank you.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Madam Ambassador, for your time and 
testimony today. And, of course, thank you as well for your 
service to this country.
    I want to follow up a little bit on what Chairman Corker 
and Senator Perdue were asking about, and that is Security 
Council Resolutions 1929 and 2231. Of course, we know there was 
a second ballistic missile test from Iran, which was a clear 
violation of these resolutions.
    After the first launch in October, we referred, as you 
said, the matter to the United Nations, and called on it to 
``review this matter quickly and recommend appropriate 
action.'' On October 22, I believe you stated, and I quote, 
``The United States will continue to press the Security Council 
to respond effectively to any future violations of U.N. 
Security Council resolutions. Full and robust enforcement of 
all relevant U.N. measures is and will remain critical.''
    So as of today, has the United Nations Security Council or 
sanctions committee taken any actions in response to the 
Iranian missile test? And I believe the answer is, no, they are 
meeting Tuesday. Is that correct?
     Ambassador Power. Yes. Beyond having Security Council 
discussions of the matter, there has been no follow-on action. 
Discussions are a form of U.N. action. It is a little bit like 
hearing is a form of congressional action. So we have had 
multiple discussions.
    Senator Gardner. The Tuesday meeting, can you describe the 
actions that will be taken in that Tuesday meeting?
     Ambassador Power. We will hear back. Well, we will 
actually probably not yet hear back from the panel of experts. 
But if we are in a position to confirm the recent launch, this 
is something that we would bring to the council. We are not yet 
in a position to confirm, but are looking to confirm those 
reports, if warranted.
    And again, we will get an update from the U.N. in terms of 
when the panel of experts' report is going to come back.
    Senator Gardner. And so this launch needs to be confirmed, 
but the last launch, we still have not taken any action on the 
last launch?
     Ambassador Power. Again, we have taken action.
    Senator Gardner. What are those actions?
     Ambassador Power. We confirmed the violation. We brought 
it to the U.N. Security Council, and the panel of experts is 
investigating the matter and will report back.
    Senator Gardner. So what other actions has the 
administration taken in response to the missile test, other 
than taking it to the panel, talking about it, and having a 
meeting?
     Ambassador Power. We are looking also, as I mentioned 
earlier, at the bilateral sanctions tools that we have at our 
disposal. So that is something, again, that the Treasury 
Department is following up on.
    Senator Gardner. What unilateral measures are we 
considering?
     Ambassador Power. I believe sanctions designations, 
bearing in mind that that most actors--I shouldn't say 
``most''--many of the actors involved in ballistic missile 
launches in the program itself are already sanctioned under 
U.S. law.
    Senator Gardner. And are we considering stopping sanctions 
relief from proceeding or rescinded any previous relief, as a 
result of these actions?
     Ambassador Power. The JCPOA, as you know, the sanctions 
relief associated with the JCPOA, will not occur until after 
the initial steps have been taken and the IAEA has verified 
that those initial nuclear-related steps are taken.
    But I want to underscore, again, that the point of the 
JCPOA is to dismantle Iran's nuclear weapons program, and that 
is a really important area of emphasis for us.
    Senator Gardner. So more important than the ballistic 
missile concerns?
     Ambassador Power. I do not want to talk about relative 
importance, but taking away Iran's--I think this is something 
all of us can agree upon--actually ensuring that Iran does not 
develop a nuclear weapon is a huge priority.
    Senator Gardner. You mentioned in your opening statement, 
you said, and I quote, ``exploit vacuum of authority.'' I think 
you were referring to actors in the Middle East and other 
terrorists, that they were maybe trying to exploit a vacuum of 
authority.
    By not imposing sanctions, by not designating individuals, 
by not doing anything other than talking, are we not allowing 
exploitation of a vacuum of authority?
     Ambassador Power. This administration has put in place, in 
the case of the Iran sanctions regime, as you know, this body, 
the Congress, in the first instance, and then amplified and 
extended by what we have done at the U.N., the most devastating 
sanctions regime in the 70-year history of the United Nations.
    So I do not think there is a void or a vacuum. Iran has 
seen the consequences of violating international norms. We also 
have a sanction snapback provision that I think few around the 
world would have thought we could have secured as part of this 
deal, which would allow any single country to snap back in the 
event of significant noncompliance with the deal.
    So sanctions are a really important tool. The sanctions 
that this Congress has put in place is one reason we are in the 
position we are now to ensure that Iran does not develop a 
nuclear weapon.
    Senator Gardner. But nothing has been done, other than a 
meeting coming up on Tuesday with a panel of experts on a 
ballistic missile violation.
     Ambassador Power. We have increased, and will continue to 
increase, the political cost to Iran when it violates U.N. 
Security Council resolutions.
    Senator Gardner. Could you give me an example of that?
     Ambassador Power. The work that Iran does to try to ensure 
that the U.N. Security Council does not even discuss ballistic 
missile launches, I assure you, is a testament to actually the 
stigma that they still associate with our bringing these issues 
before the Security Council, the same with the panel of experts 
actually discussing this and documenting any violation.
    This is something that Iran, which, of course, wants to 
become a nation like any other nation within the U.N., they 
find it very frustrating that they continue to be scrutinized. 
They have never recognized, as you know, the U.N. Security 
Council resolutions, so the fact that the council keeps 
functioning, keeps oversight, keeps the spotlight on, increases 
the political cost, is an important step.
    Senator Gardner. In October, many members of this committee 
sent a letter to the Secretary of State talking about Iran's 
October 10 ballistic missile. The letter talks about a range of 
unilateral, multilateral tools available to counter Iran's 
missile-related activities on past occasions, imposed penalties 
under domestic authorities on foreign persons and entities 
engaged in proliferation activities.
    But we have done nothing. We have imposed no penalties 
under domestic authorities or on foreign persons and entities, 
as a result of these two launches. Is that correct?
     Ambassador Power. I want to just underscore the importance 
of the broader ballistic missile defense efforts that we make. 
I feel like I have answered the question you have just posed 
several times, so let me try a different broadening approach, 
which is our response to Iranian ballistic missile launches is 
also a defense response. It is also the Proliferation Security 
Initiative. It is everything that has come out of Camp David 
and our engagement with the Gulf countries to ensure 
interoperability. It is the Iron Dome and all of the other 
bilateral defense arrangements that we have with the country of 
Israel, many of which are getting deepened, as you know, in 
consultations.
    Senator Gardner. They have launched twice. Is that working? 
If they have had two launches now, one in October, one 
recently, is it----
     Ambassador Power. I mean, if one is thinking in terms of 
regional defense, one has to take measures in order to try to 
ensure that our partners in the region have the tools to defend 
themselves.
    Even if you had a designation against someone involved in 
the ballistic missiles program, the number one deterrent and 
preventive measure is going to be regional defense. That is 
where our emphasis was.
    If I were here and we had designated another actor 
bilaterally--let us say we find one that has not already been 
designated and designate, I do not think that that would 
address your concern about Iran's ballistic missile program, 
nor should it.
    So again, Iran has systematically ignored U.N. Security 
Council resolutions over the life of the entire international 
Security Council regime. The sanctions themselves were so 
crippling and brought us to the place where we could secure 
this deal because the other countries in the international 
system would be sanctioned if they were engaging with Iran in 
prohibited behavior.
    Senator Gardner. This systematic ignoring of the 
resolutions, does that not give you concern about their 
willingness to comply, going forward?
     Ambassador Power. That is why we have snapback. That is 
why we have verification monitoring on the ground. As the 
President said from the beginning, this is not an agreement 
predicated on trust, particularly in light of Iran's past 
behavior, past behavior, again, confirmed by the IAEA PMD 
report.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Before going on to Senator Kaine, I just want 
to reiterate, I think what Ben and I did the other day with you 
and the other members. I think regardless of how people may 
have voted on the Iran agreement, we understand that it is what 
is governing our actions right now with Iran. And I think on 
both sides of the aisle, regardless of how people voted, we 
want to make sure the agreement is implemented in the way that 
it was laid out.
    And I think there has been a concern on both sides of the 
aisle that there is an air of permissiveness that is developing 
that will cause the likelihood of any pushback on Iranian 
violations over time to become less real. And I think that is 
what he's getting at and I think what people on both sides of 
aisle have been concerned about.
    U.N. Security Council Resolution 1929 says they shall not 
undertake any ballistic activity. Unfortunately, JPOA says ``is 
called upon.'' I do not know whether Iran views that as 
permissive language.
    But this is an issue that I think many people on both sides 
of the aisle are concerned about. I cannot speak for everyone.
    And what we are seeing is, again, not very vigilant steps 
being taken, and it is setting a precedent for the future.
    With that, Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thank you, Ambassador Power.
    You gave an interview to the PBS NewsHour on December 4, 
and you noted that more progress needs to be made in uniting 
the anti-ISIL coalition. Would our unified resolve against ISIL 
be clearer to our allies, to our troops, and to ISIL if 
Congress was willing to finally debate and vote on this matter 
after 16 months of war?
     Ambassador Power. Yes, Senator. Thank you for your 
leadership on this issue from the very start.
    I think people are puzzled as to why--people that I work 
with, I should say, day-to-day up at the U.N.--are puzzled, 
given the priority that the American people and, on a 
bipartisan basis, both houses of Congress attach to the anti-
ISIL struggle and all of the attention to it that has come over 
the course of the last 2 years as to how we cannot arrive at 
some consensus in order to be able to enshrine in legislation 
that which we say is true, which is, again, that this has the 
bipartisan backing of the American people and of the Congress.
    So I think it would be a really important signal if we 
could get that AUMF done.
    Senator Kaine. I have not done the research on this, but 
just from headlines and my memory, it strikes me that at least 
three of the U.N. Security Council nations--Britain, France, 
and, I am sad to say, Russia--have had their legislative bodies 
vote to confirm and approve after a debate their military 
activity against terrorism in Syria and Iraq. Is that correct?
     Ambassador Power. That is my understanding, as well, and I 
think other countries who are part of the coalition, but not on 
the Security Council, also, we could add to that list.
    Senator Kaine. Germany, for example.
     Ambassador Power. Denmark, et cetera.
    Senator Kaine. Bundestag acted last week.
     Ambassador Power. Yes.
    Senator Markey. Last week, the chairman of the Senate Armed 
Services Committee, Senator McCain, said this, he did not say 
this approvingly, so I do not want to suggest that he was 
saying it approvingly, but when he was asked when an 
authorization vote would occur in Congress, he said, ``It may 
require an attack on the United States of America.''
    In terms of you being able to do your job well, would it be 
a good idea for Congress to wait that long?
     Ambassador Power. No, it would not be a good idea for 
Congress to wait that long. I think this should be one issue 
that everyone in this country can agree upon, even those who 
have differences over tactics, over the number of trainers, or 
different aspects of the operations as they are unfolding. 
Everyone should agree that defeating and degrading ISIL and 
showing the world that this is something that is backed by the 
Congress, rendering these operations sustainable and enduring 
over what is a long struggle, would just be invaluable.
    Senator Kaine. The President started this war against ISIL 
on August 8, which was 16 months ago yesterday. A year ago 
Friday, the only vote that has happened in Congress, in terms 
of an authorization, occurred in this committee on December 11, 
2014, an authorization that was reported to the Senate floor 
where no action was taken on it.
    The RAND Corporation issued a report to the Pentagon this 
week that said relying upon the 2001 and 2002 authorizations at 
a minimum involved legal gymnastics that were not helpful, and 
urged Congress to take action. It is just my hope that we will 
do that, and it is my hope that it will not take a kind of 
cataclysm that was suggested, again, disapprovingly by Senator 
McCain. I think Senator McCain views it the way that I do, that 
he thinks Congress should act.
    Let me ask you this, moving to peacekeeping, a good news 
story, you talked about European nations having scaled back 
peacekeeping operations. A good news story for this committee 
and for this Congress is Colombia stepping up in September and 
saying they wanted to devote 5,000 troops to the U.N. 
peacekeeping mission. Colombia is also a peacekeeping 
participant in the multinational force and observers in the 
Sinai, as of relatively recently.
    We sometimes wonder whether U.S. engagement on a diplomatic 
way can make a difference. Colombia is an example of failed 
state to international security partner in a way that I think 
this committee in a bipartisan way can be proud. And, also, 
three administrations, the Clinton administration, the Bush 
administration, and the Obama administration, have had a 
dedication to that.
    Talk about nations like Colombia who are coming into 
providing peacekeeping forces for the first time and the degree 
to which we can encourage them.
     Ambassador Power. Thank you, Senator.
    We view that commitment in very much the same way. It 
seemed also a real reflection of, however difficult the peace 
process is, and there is a lot of work left to do, but their 
confidence they are going to get where they need to get to be 
in a position to free up resources to be part of international 
peace and security.
    Latin America has a huge contribution to make. One of the 
significant features of the President's summit was a number of 
Latin American countries announcing that they were prepared to 
do peacekeeping out of hemisphere, because a lot of Latin 
American countries had been dedicating their forces in Haiti.
    I want to particularly commend Uruguay, because they have 
actually been taking lead within the region at mobilizing 
different contributions, working with the Colombians, saying 
this is how it worked for us, this is how it will work for you.
    I also want to commend Mexico, which I visited recently, 
which has announced that it will break new ground and be 
involved in peacekeeping for the first time. It is in the midst 
of discussions now with the U.N. as to what form that will 
take.
    If I could just touch upon, because I think it is such an 
important point, the larger point, the pulling up from Latin 
America, which is the dividend for us when a country makes 
progress domestically, whether in terms of democratization or 
in terms of conflict resolution.
    I just am back from Sri Lanka, a place that, in the wake of 
its defeat of the LTTE, the people who, in effect, coined the 
suicide bomb, really regressed in terms of creeping 
authoritarianism, horrible atrocities carried out at the tail 
end of the war and no accountability for that.
    Now there has been a change in government. Not only do we 
see them domestically taking on issues of accountability, 
trying to work on reconciliation with the Tamil population, but 
we also see their behavior within international institutions 
transformed, also making a very substantial commitment to 
peacekeeping, the stand they take on human rights resolutions, 
on Syria, on North Korea, et cetera, shifting.
    So I want to just dwell on this point because sometimes one 
looks at the U.N. and it is just this black box where we are 
not getting the returns that we want, we are not getting the 
votes that we want. The way the U.N. changes over time is 
countries that comprise it change, and they become more at 
peace within themselves. They democratize. Their institutions 
get stronger. And we see a payoff, again, in terms of the 
critical mass of countries then that we have as partners in New 
York to work with.
    Right now, it is still the case, though, that more than 
half the countries in the U.N. are not democratic. That affects 
the extent to which the U.N. is going to be a tool on democracy 
promotion or human rights enforcement, et cetera.
    Senator Kaine. Thank you.
     Ambassador Power. Thank you, sir.
    The Chairman. Thank you. The vote has gone off, and Senator 
Isakson is next. After him is Senator Menendez.
    I would ask you, if you would, to chair the meeting while 
you are asking questions.
    Senator Isakson. I am going to be very brief, because I 
have to go to the floor, too.
    The Chairman. Okay, then Senator Murphy is next after 
Senator Menendez. If we would just keep it going, and I am 
going to bolt and come back. And thank you both very much. I 
know it will be orderly, regardless.
    Senator Isakson. So you want me to yield to Senator Murphy 
after I finish?
    The Chairman. If Menendez is not back. Thank you.
    Senator Isakson. [Presiding] Thank you, Mr. Chairman, and 
thank you for calling this hearing. I am going to be very 
brief, because I have to do a part of this in just a minute on 
the floor.
    But required reading of every Member of Congress and of 
every Ambassador to the United Nations ought to be Samantha 
Power's book ``A Problem from U.N. .'' If that book had been 
read, a lot of the problems we are talking about today in 
peacekeeping missions and rape being used as a military tactic 
and things like that, we would be a lot further along than we 
are today. That is a great book and everybody should read it.
    Senator Corker and I went to Rwanda. We know about the 
Kigali Principles, and that is my first question to you.
    As a country, have we adopted the Kigali Principles? Has 
the United States of America done that?
     Ambassador Power. As you know, we are not a substantial 
contributor to peacekeeping. So these principals so far have 
been embraced by the big countries that are putting thousands 
of troops in harm's way. We have 40 police officer and 40 
military officers, all of whom we are incredibly grateful for.
    So we have not yet, but more for that reason than any 
substantive objection. If you support our joining, I can convey 
that back.
    Senator Isakson. Let me make my point. When I read your 
speech last night, you did not include this part in the speech, 
but it is in the printed speech, you talked the Kigali 
Principles and what they were developed from, which was a 
learning lesson, I think, from what you pointed out in ``A 
Problem from U.N. ,'' your book.
    The Kigali Principles, as I understand it, is that 
peacekeepers, their countries need to affirm that their troops 
will have the authorization to use force when necessary and do 
not have to radio back to headquarters to get approval. Is that 
correct?
     Ambassador Power. Correct, sir.
    Senator Isakson. That is our problem in the Middle East 
right now, in terms of the United States. I do not think we 
have enough of that type of authorization for the rules of 
engagement of our own troops. I commend you for raising it on 
this question. But I think it is a bigger question, in terms of 
our being able to be effective, and that is to have the troops 
in the field that you have deployed, either for peacekeeping or 
for war, if you are at war, to have the actual authority for 
use of force they need to carry out their mission.
    It kind of struck me that we were congratulating Sri Lanka 
and Korea and a lot of people who provide peacekeeping troops. 
Yet we as a country have very limited rules of engagement 
authorization right now as a practice in our own country. So 
that is my reason for bringing the point up.
     Ambassador Power. If I may just respond briefly, Senator, 
while you are here. You know, my impression is not that. I 
think that what President Obama has conveyed to the Secretary 
of Defense and to the chairman and to his commander, General 
Austin and the commanders on the ground, is a desire to offer 
strategic guidance, discuss any big shifts in the strategy at a 
senior level to make sure everybody is on the same page.
    But there is a huge amount of tactical and operational 
flexibility that these commanders have. And I think you have 
seen, certainly, the President say publically what he has also 
conveyed many times privately in the Situation Room, which is, 
if there are ideas for how we can pursue this campaign more 
expeditiously in ways that increase the security dividend for 
the American people sooner, I want to see those ideas.
    And so I am in these meetings where we are discussing the 
way ahead in our anti-ISIL strategy, and I, again, have not 
heard the commanders not getting the flexibility that they 
seek.
    Senator Isakson. Thank you for your answer, and thank you 
for your service.
    My last question is not a question but a statement, and 
that is to thank you. Your wagon is loaded and gets a new load 
every day, and I think you are doing a terrific job. But I 
would underscore, as I leave, Senator Cardin's remarks, and 
those of Senator Perdue and the chairman, the more 
transparency, the better for the U.N. There is a lot of 
suspicion, a lot of misunderstandings. And there is a lot of 
lack of trust out there in the general public. The more 
transparency we can have, particularly on who is paying what 
and how they are paying their share, would be helpful to the 
U.N. mission in having the support it really needs to carry out 
its intent from the beginning.
     Ambassador Power. Well, Senator, that gives me the chance 
to invite you to New York so you can get immersed in those 
budget numbers firsthand. But we would really welcome visits by 
members of this body, and we would give you a good and deep 
tour of the U.N. and so many of the Africa-related issues that 
you have worked so hard on.
    As you know, the U.N. is on the frontlines.
    Senator Isakson. Invitation accepted.
     Ambassador Power. Okay, great. Thank you.
    Senator Isakson. Senator Murphy?
    Senator Murphy. Thank you, Senator Isakson.
    Good morning, Ambassador Power.
    The evening of the President's Sunday night speech, there 
was a series of social media postings by a really wonderful 
reporter from the New York Times, Rukmini Callimachi. She wrote 
a piece based on those observations the next day and the title 
was ``U.S. Strategy Seeks to Avoid ISIS Prophecy.'' And the 
idea is that, if you really understand the fundamentals, the 
building blocks, of the religious perversion of ISIS, it is 
built upon a prophecy, a hope, a belief, that ultimately they 
are going to be in a military contest on the ground with the 
United States and with Western powers. I suspect that that 
acknowledgement is part of what made the President in that 
speech talk about not only the things we should do but the 
things we shouldn't do.
    I understand that we are not going to be putting U.N. 
peacekeepers on the ground inside a complicated, violent civil 
war any time soon, but from a broader perspective, can you talk 
about, as we try to confront organizations that are in 
countries like Mali that have peacekeeping forces, that are 
trying to goad the West and, in particular, the United States 
into a military confrontation, why multinational and 
multiethnic forces are going to be perhaps best positioned, 
much better positioned than a majority U.S. force, to try to 
preserve peace and order? And maybe as part of that answer, 
talk about the contributions that majority-Muslim nations make 
to peacekeeping or could or should make in the future, if that 
is amongst the reasons why we should be paying more attention 
to investment in peacekeeping.
     Ambassador Power. Thank you, Senator Murphy. It is a 
complex question and set of ideas within it.
    I think a key to effective deployments is legitimacy. And 
one of the things that multinational deployments can offer, but 
can also forfeit, as we have been talking about in the context 
of sexual abuse, is a perception of legitimacy, a perception 
that the whole world is behind a peacekeeping mission.
    In truth, I think have a 65-nation coalition also enhances 
legitimacy. And the fact that countries from the region are 
part of that against ISIL is very important. It was something 
that was very important to the President to secure that kind of 
regional support.
    The one thing that I would note in areas where terrorists 
are active, and Mali now with 44 deaths of peacekeepers just 
over the life of a mission that has been in place only a few 
years underscores, is that there can be a mismatch between U.N. 
peacekeeping and even robust U.N. peacekeeping, which we 
support, and the Kigali Principles show that a lot of other 
troop-contributing countries support, and these kinds of 
environments where extremists and terrorists, yes, they may 
make the United States their number one target, if they have 
that opportunity, but if there are no Americans around, they 
are also perfectly prepared to target Chadians and Dutch 
peacekeepers and Burkina Faso peacekeepers.
    So I want to stress that I agree very much, I think, with 
the logic of the article that you have described and found it a 
very powerful look at ISIL's ideology.
    I will use the question as an occasion to alert the 
committee to the extent to which peacekeeping is being 
increasingly seen as a soft target for terrorists and 
extremists in those environments that they inhabit. And we have 
a really significant national interest in hardening these 
missions, in ensuring that they have the training they need to 
operate in these evermore not only complex environments because 
conflict is still going on, but complex because you combine 
conflict and the actual fact that the peacekeepers themselves 
are a target.
    And just to give you one example of how I think the Defense 
Department has been responsive in this regard, we are now doing 
more and more counter-IED training for peacekeepers. I mean, 
talk about not your mother's peacekeeping. If anybody would 
have imagined at the outset of peacekeeping that people would 
have to train against IEDs that were presumably targeting the 
peacekeepers themselves, I am not sure peacekeeping would have 
ever gotten off the ground.
    So I think your larger point is right. Having countries who 
know the language, I think that is a critical component, that 
have cultural overlap with those countries in which they are 
operating is really important.
    The only other challenge is that sometimes countries can be 
too familiar with a country. One of the reasons the 
international community went to U.N. peacekeeping in the first 
place is to try to inject actually more distance so there would 
be a greater perception of independence and one would not be 
seen as being a stakeholder on one side or the other.
    So all of these factors, I think, need to be taken into 
account.
    Senator Murphy. [Presiding] Well, thank you. And let me add 
my thanks to Senator Isakson for the number of heavy lifts that 
you undertake for us every day in New York. Thank you for your 
time.
    And I will turn it over to Senator Menendez.
     Ambassador Power. Thank you, Senator.
    Senator Menendez. Thank you.
    And in appreciation of the chairman's courtesies, I am not 
going to ask for unanimous consent for anything I want right 
now, since I am here alone. [Laughter.]
    Senator Menendez. So let me let me, first of all, 
Ambassador, say I appreciate your service to our country, and I 
have a high regard for you.
    And my own personal view is that, left to your own devices, 
on some issues, you might be more forward-leaning. You do not 
need to respond to that. It is just my observation.
    Having said that, however, let me enlarge this conversation 
about peacekeeping. I know some of my colleagues have broached 
this subject already.
    Peacekeeping is, yes, very important in the sense of what 
the core of this hearing is about, but part of the way in which 
you keep the peace is to make sure that the will of the 
international community is observed and that it is not 
violated, and if it is violated, that there are consequences so 
that, hopefully, a continuation of that breach does not lead to 
the outbreak of war and, therefore, what flows from that.
    So I want to come to the issue of Iran. I know several of 
my colleagues have pursued the core of the missile test. But 
first of all, I would like to ask you, would you agree with me 
that for well over a decade, Iran, as you have said in response 
to some of my colleagues' questions, did not recognize U.N. 
Security Council resolutions and moved their nuclear program 
forward to a point in which it got so big--too-big-to-fail, in 
the bank context? Well, this was too big to actually end.
    So they violated the international will purposely, and in 
doing so were able to get to a point that they largely wanted 
to. Would that be a fair observation?
     Ambassador Power. Yes, they violated international 
resolutions and built up their program. Again, I think this is 
probably not the venue to get into the extent of the program.
    Senator Menendez. No.
     Ambassador Power. But such that----
    Senator Menendez. That is pretty well-documented.
     Ambassador Power. Yes.
    Senator Menendez. But in any event, and in plenty of public 
discourse, as well.
    But the point is they violated international resolutions 
for----
     Ambassador Power. Absolutely.
    Senator Menendez.--the better part of a decade.
     Ambassador Power. Yes.
    Senator Menendez. And during those violations, they 
progressed, for a good period of time without the type of 
sanctions regime that was largely generated by the Congress, 
not by the executive branch.
    And so I look at that, and I look at your acknowledgement 
that they have not recognized Security Council resolutions, and 
I say to myself, there is a history here and a pattern. If you 
go visit the Archives building with me, over its mantel it 
says, ``What is past is prologue.''
    And I have a real concern that what we have here is a lack 
of will by the United States and as a leader in this regard by 
our partners in going ahead and making sure that Iran 
understands that you cannot violate the international will 
without consequence, which I consider, even as I did not 
support the agreement, that to the extent that the agreement is 
going to produce any benefits, Iran must clearly understand 
that there will be consequences for not following that 
agreement.
    And the message it seems to me that we are sending and that 
we have sent as a country in various iterations is quite the 
contrary.
    So we, basically, have no real action. I heard your 
responses about referring it to the committee and having 
discussions. I get the U.N. process. But the bottom line is 
there have been no real actions, no consequence.
    Now they have a second test, and we are talking about 
verifying. But at the end of the day, it took place and there 
will be no real consequence.
    We would like to see the Security Council be the venue for 
a multilateral consequence, but we hear nothing in the interim 
about an individual consequence.
    We see a set of circumstances in which I predicted as well 
as a whole host of others that on the question of Parchin, we 
were going to basically sweep this under the rug and ultimately 
dismiss it, which is now the resolution that is presently being 
circulated at the IAEA to close this chapter, because we want 
something bad enough we are willing to go ahead and overlook. 
In doing so, I think we make a grave mistake.
    We did that with Cuba, because we wanted to create 
relations with Cuba even though they violated Security Council 
resolutions and shipped missiles and MiGs under tons of sugar 
to North Korea. Nothing happened to them.
    So when we want something bad enough--when I say ``we,'' 
the administration wants something bad enough--they are willing 
to overlook. And that is a dangerous proposition, a dangerous 
proposition.
    So what is it that we are going to do to send a real, 
clear, unequivocal, unambiguous message to the Iranians, 
because we were all assured here that notwithstanding the 
nuclear portfolio, that we could be robustly active and take 
actions on nonnuclear issues. Well, this is a nonnuclear issue. 
And conversation is not an action.
     Ambassador Power. Thank you, Senator.
    So let me use this also as an occasion, since Senator 
Corker is back, to address a comment he made earlier, which is 
in keeping with what you are saying, which is his impression of 
a kind of greater permissiveness and your statement that 
somehow if you want it bad enough, you are willing to overlook, 
et cetera.
    The way that this administration and our predecessors 
responded in New York to prior recurrent, as it happens over 
the life of the regime, violations of U.N. Security Council 
resolutions has not changed. There is no difference in the way 
that we go through this procedure, what we seek to do in New 
York at the U.N. Security Council. And, frankly, there is not 
even much difference in terms of the kinds of resistance we 
face from predictable quarters.
    The Security Council regime, as you well know, built out 
and force multiplied on the sanctions that Congress put in 
place. And it is that regime that caused Iran to make a series 
of concessions that for I think the three of you here were not 
deemed satisfactory, but went well beyond what would have been 
achievable without the sanctions regime, and gives us the 
confidence, again, that this is a good deal and one that will 
dismantle Iran's nuclear weapons program.
    The objective we have----
    Senator Menendez. With all due respect, I am not talking 
about the deal anymore. We are past that.
     Ambassador Power. No, we are talking about implementation 
of the deal.
    Senator Menendez. I am talking about making sure that we 
have enforcement of Security Council resolutions that are 
meaningful.
     Ambassador Power. Agreed. Agreed.
    But, again, sort of the accusation is that we are seeing 
things differently than you, because we have a vested interest 
in seeing this deal implemented. We have a collective, as I 
think all of you agree, vested interest in seeing this deal 
implemented, because we do not want Iran to ever obtain a 
nuclear weapon. That is our objective.
    And we have put in place measures. It is the expanded 
verification and monitoring, and even the PMD. For all of the 
dissatisfaction that has been expressed about the report and 
our approach to it, fundamentally, the IAEA was able to get 
access to Parchin in a way that it had not been able to in the 
past.
    The snapback of the sanctions regime is an incredibly 
important tool in our arsenal, and it is leverage. Senator 
Corker said the other day to the Security Council that we will 
have given up all our leverage on the frontend. That is just 
not true. We will have that hanging over implementation, 
reporting of violations, going forward. And we will have in our 
toolbox the bilateral sanctions measures as a way of responding 
to lesser incidents of noncompliance and lesser violations.
    So, again, the U.N. Security Council is one venue, and we 
will do as we have been doing for a decade, which is call a 
spade a spade, bring forward violations, increase the political 
cost, ensure that Iran is isolated for its violations of 1929 
now and 2231, once the implementation day progresses.
    But we also have a set of other tools aimed at getting at 
Iranian bad behavior, including ones on this body.
    Senator Menendez. Mr. Chairman, if I may, since my time has 
expired, let me just make a comment.
    You know, I appreciate your answer. You are very good at 
answering, but not answering.
    So let me just say that you talk about snapback, those 
sanctions that you admit and the administration has 
increasingly admitted brought Iran to the table, they expire 
this coming year. And you all negotiated away, at least as I 
read the agreement, the ability for the administration to 
support a reauthorization of it, which I intend push for, 
because the snapback means nothing if cannot snap back to 
something that is meaningful. And the administration just will 
not talk about that reauthorization, because, as I read the 
agreement, they do not have the wherewithal to agree to a 
reauthorization. They gave it away.
    And then the last point, another example, enforcing 
Resolution 1701, the transfer of arms to Hezbollah. During the 
review of Iran nuclear agreement and defending the lifting of 
the U.N. arms embargo, the administration repeatedly emphasized 
that U.N. Security Council Resolution 1701 remains in place, 
and that prevents the transfer of weapons to Hezbollah, and we 
are going to make sure that that is the case.
    Well, since the announcement of the JCPOA, Hezbollah has 
continued to receive arms from outside of Lebanon. So what 
steps have UNIFIL taken to stop the transfer of arms to 
Hezbollah? What steps have we taken to stop those transfers?
     Ambassador Power. Thank you, Senator. I addressed this 
question earlier for Senator Perdue, but it is a very important 
question.
    I think the point that was made over the course of the 
discussion about the JCPOA is that authorities, that this body 
and we were understandably concerned, were going away or could 
go away at some point under the JCPOA. Many of those 
authorities were elsewhere in other Security Council 
resolutions. So I think that was the implication of 1701, in 
that context.
    Look, as I said earlier, Hezbollah is a terrorist 
organization, and UNIFIL is a peacekeeping mission. UNIFIL's 
job is to do everything in its power to deter Hezbollah from 
amassing weapons, to call a spade a spade, and to call them out 
when they are, to alert us and other stakeholders to anything 
that comes to their attention that, again, is alarming in this 
regard.
    As you know, over the life of UNIFIL, I think it has had a 
constructive effect on events on the ground. I do not think the 
Government of Israel would support its perpetuation if it had 
not. But is it a panacea for Hezbollah? No, it is not. And, no, 
it will not be.
    I think that we have really pressed the U.N. to step up its 
reporting and to sound the alarm and to shine the spotlight and 
to do the things that it can do. But in terms of armed 
confrontation with Hezbollah, that is not something UNIFIL is 
perusing.
    We are also trying to enhance the capabilities of troops 
who comprise UNIFIL, which is one of the stronger missions, 
because of the European presence. And we are hopeful, again, 
that the peacekeeping summit that the President chaired will 
give us a broader pool of troops to draw from, so as to make 
sure that that mission is right-sized.
    Senator Menendez. Well, thank you, Mr. Chairman. I would 
just say that no consequences is a green light to violations. 
And that is what I see us doing.
    The Chairman. [Presiding] Thank you.
    Before I turn to Senator Markey, while Senator Menendez is 
here, it is true that it is highly unlikely that the U.N. 
Security Council will take any actions relative to the 
violations of UNSCR 1929. Is that correct?
     Ambassador Power. Again, we have already taken action.
    The Chairman. The answer is yes.
     Ambassador Power. We have already taken action.
    The Chairman. But----
     Ambassador Power. We have brought the issue to the 
Council. This is what we did----
    The Chairman. But I am talking about as far as sanctions, 
penalties.
     Ambassador Power. I would not assess that----
    The Chairman. It is not likely that Russia or China will go 
along with----
     Ambassador Power. I share your assessment on Russia and 
China.
    The Chairman. Okay, so let me just say this.
     Ambassador Power. Yes.
    The Chairman. When you say that it is untrue what I said, 
relative to----
     Ambassador Power. That the administration was being more 
permissive in terms of sanctions violations. That was what I 
heard you say.
    The Chairman. Well, we will see. Nothing has happened yet.
    What I said was that the leverage shifts to Iran. They are 
at breakneck speed dismantling so that they get the sanctions 
relief they are after, which we would expect. Now people 
believe that in January or February, they will get all of the 
sanctions relief they are after.
    And for you to say that snapback is a real tool when it is 
contingent upon the countries that are participating 
implementing back those sanctions, and we have countries like 
Russia and China, which probably, likely, we know, are not 
going to push back against this issue.
    If there are incremental violations, all of the leverage is 
with Iran. That is a fact. It is not incorrect. It is with Iran 
because there is no way that this administration is going to 
consider challenging an incremental violation because they know 
all Iran has to do is step out. And they know that Russia and 
China and, candidly, probably our Western friends in Europe are 
not really going to force them to comply.
    So it is a true statement, not an untrue statement, that 
the leverage ends up with Iran because they have what they 
want. We have given it up, and we have partners at the U.N. 
Security Council that are not going to cooperate with us.
    Senator Markey?
    Senator Cardin. Let me just interject for one second. I 
apologize to Senator Markey.
    I think a lot of us share that frustration. I would just 
urge us to work with our European allies on the timing of a 
response to the violation of the ballistic missiles.
    We all share the frustration that there is unlikely to be 
sanction action by the Security Council, but if we demonstrate 
action with our European partners, particularly in the P5, I 
think it would be a signal to Iran that these types of 
activities are not going to go unchallenged.
     Ambassador Power. Senator Markey, would you mind if I just 
respond very briefly? I am so sorry.
    But I want to underscore that when we went to the council 
once we confirmed the violation on October 10, we did so with 
the United Kingdom, with France, and with Germany. And I think 
doing something like that irrespective of what further tangible 
outcome we were able to secure from the council is going to be 
very important in perhaps even broadening that.
    Mr. Chairman, the one thing I feel compelled to say is that 
when you say they are going with breakneck speed to dismantle, 
it is very important to remember that that is a good thing. 
That is what we want, that breakneck speed, the dismantlement.
    So understanding again that there is pay for performance as 
part of the deal, that is the way that we have incentivized 
them moving forward and allowing the inspectors in.
    But sometimes in the way that this is discussed, you would 
think that that is not a good thing. That is a good thing. That 
is the point of the deal, to get them to dismantle their 
program.
    The Chairman. No, I understand that. I understand they are 
dismantling antique centrifuges, and we are allowing them to 
continue development of IR-2s, IR-4s, IR-6s, IR-8s. I 
understand that.
    And look, again, I do not want to re-debate the agreement. 
What I think we are focused on right now is that the 
international community knows that they violated UNSCR 1929, 
and in essence, they are violating the spirit of JPOA, where 
they are called upon not to do this. And we all know that the 
U.N. Security Council is not going to take action.
    That is what is important to us, because we believe that 
after they get the sanctions relief, after they dismantle these 
antiques that they are using right now, these IR-1s, that they 
are going to push the envelope.
    And we believe that you and others there, by not taking 
even bilateral action yet, are helping create an air of 
permissiveness.
    Even though we like you and respect you, we have a policy 
difference here. This is not directed at you. It is directed at 
the U.N. Security Council.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Thank you for all your great work, Ambassador. I know it is 
global and complex, but you just serve our country so well. 
Thank you.
    Could we come back, if we could for a second, to Syria? 
When I look at Assad, when I look at all of his supporters 
inside of the country, he has upwards of 30 percent of the army 
as Sunni soldiers who will not be viewed well when there is a 
peace agreement by the other Sunni soldiers that have been 
trying to depose Assad for all these years--similarly, the 
Alawite soldiers who are fighting for him.
    So they will be looking for protection, if there is a peace 
agreement. And I think Secretary Kerry and his entire team are 
doing a great job in moving us toward that. But there will have 
to be protection for these people to avoid--and I think they 
would be foolish not to anticipate this--what happened in Iraq, 
what happened in Libya, what happened in Egypt.
    So they are going to be looking for protection, and that 
kind of looks to the U.N. It looks to these blue-helmeted 
soldiers to come in and to give some level of guarantee that 
there will protection for them if they lay down their guns.
    Otherwise, I do not see a resolution of it. I just see a 
protracted war where no matter how hard you try to negotiate a 
peaceful settlement, you just wind up with an ever-continuing 
conflict.
    So could you talk about that a little bit and what role 
U.N. peacekeepers could play in a post-peace agreement, 
understanding that we are far from that, but just looking at, 
anticipating, a potential role for the U.N. or some other 
multinational force to move in and to give some guarantees?
    Otherwise, I do not think Assad is ever leaving. You just 
look at it from a perspective of human nature and looking at 
what has happened in all these other countries, they will be 
dead. They will be killed. I mean, the revenge motivation is 
just going to be so high, given the tragedy that has affected 
these other families. And then we have yet another cycle that 
we have participated in.
    So how could the U.N. or another multinational force play a 
constructive role?
     Ambassador Power. Well, there is no shortage of very 
complex dimensions to imagining a political settlement for 
Syria. But you put your finger on I think one the hardest 
issues of all, which would be any notional reintegration of 
Syrian moderate opposition forces with Syrian Government 
troops, whether the air force, which have been involved in 
barrel-bombing and chemical weapons use, or the infantry. I 
mean, it is going to be extremely difficult. And as you say, we 
are not at this point of the discussions.
    But in order for there to be an agreement on a political 
transition by mutual consent, which is the catchphrase from 
Geneva and is the operative principle for Vienna, that is going 
to be one of the questions that both sides are asking, because 
it cuts in the other direction as well. When moderate 
opposition forces go back to their home communities from which 
they have been purged, what happens to them if the forces in 
control remain, in large, government forces?
    So where that confidence-building comes from, who the 
guarantors are of any kind of reintegration--and this gets back 
to Senator Cardin's question earlier--what the accountability 
mechanism is whereby there can be some healing or truth telling 
and punishment for those who committed the worst violations, 
all of those modalities have to be worked through.
    Senator Markey. On both sides.
     Ambassador Power. On both sides, again, yes, absolutely.
    Now in terms of the near term, we have ISIL with a very 
extensive presence in Syria that is shrinking but nonetheless 
would be a significant consideration for any outside country 
thinking about deploying troops to Syria. We have al Qaeda's 
affiliate al-Nusra as well. Part of what is being worked 
through in Vienna, as you know, are definitions of who is a 
terrorist and who is not, so that there can be, at a strategic 
level at least, an idea that everybody can go against these 
forces together.
    But I think what you would need, if one was going with a 
troop presence from the outside, would you would have to make a 
judgment that a troop presence would do more good than harm, 
that it would invite and create more confidence. To have that 
confidence, those Alawites and Sunni soldiers on the government 
side and then Sunni moderates on the other side are going to 
have to believe that those troops are going to protect them, if 
they get attacked.
    If you look at U.N. peacekeeping missions as the first part 
of the hearing, that is not always the case around the world, 
right? Some troop contributors, that is not a role they play 
eagerly, even if that is part of the mandate.
    So then you could look at a regional force or a green-
hatted force of some kind. You would still ask that question: 
Are troop contributors ready to invest themselves in enforcing 
this agreement? Is that something that some of our allies would 
be a part of?
    And the only caution I would give in terms of a regional 
force, which is something I think that is being looked at--
again, all the costs and benefits of all of these permutations 
have to be thought through. On the one hand, you would have the 
language. You would have the cultural affinities. But in the 
case of many of the regional players, they have been 
stakeholders in this conflict, so the idea is that they would 
then be seen as impartial.
    So finding a confidence-building mechanism that does not 
run afoul of being seen to be a party to the conflict, and 
where they would be willing to put their troops in harm's way 
on behalf of this agreement, is going to be one of the 
challenges we have to think through if the parties deem an 
outside force a necessary part of this political agreement.
    Senator Markey. I do not see how you can avoid it. I just 
think that the recrimination coefficient is going to be 
historically high. The carnage has just been so great on both 
sides. And the bitterness, the acrimony will not settle out for 
decades. And we need some mechanism as an intervention that 
allows for a period of reconciliation, of healing.
    And I think in the absence of a very well thought out plan 
that is put together, and I think it should be put together 
sooner rather than later just a concept that could move in to 
assuage the concerns that all parties are going to have, that 
the removal of Assad does not ultimately lead to a repetition 
syndrome breaking out inside of the country in yet a different 
cycle that seeks to extract a revenge against those with whom 
they have grievances.
    So I just think the sooner we kind of think that through 
and what we are going to put in there, I think the better the 
conversations that we can have to give some assurances to the 
more responsible parties who might want to end this war that 
the death toll is not just going to continue to mount.
    So removing Assad is just one step. I think that it has to 
be accompanied by a set of guarantees that it is just not going 
to be mass carnage afterward.
    But I think I feel very good knowing that you are there and 
Secretary Kerry is there and thinking all these issues through. 
Thank you so much.
    The Chairman. Well, thank you for being with us. I think 
you can see that that we are getting close to the end here.
    I do want to chase just for a moment, if I could, the 
conversation you had with Senator Kaine.
    Do your colleagues at the United Nations think that somehow 
Congress and the American people do not want to defeat ISIS?
     Ambassador Power. I do not think they would have that 
impression. My response was that they are puzzled as to why we 
cannot come up with an authorization here together----
    The Chairman. And are they puzzled by the fact that the 
administration has told us over and over and over again here at 
this committee--Secretary Kerry, Secretary Carter, the White 
House sending over notes--that they have all the authorities 
they need to continue the fight against terrorism that was 
authorized in 2001? Is that confusing to them?
     Ambassador Power. I think, again, I was not speaking----
    The Chairman. That is your----
     Ambassador Power. If I may, I was not speaking to the 
legal authorities question. I do not think anybody questions 
whether or not the United States has the authority to carry out 
the campaign that we are carrying out.
    I think the question is, as a political symbol and as 
reinforcement of the effort that we are making, that there 
should be an ability to get consensus here.
    The Chairman. Well, there is consensus. I mean, the 
President has the authority----
     Ambassador Power. I am sorry. My response was on an AUMF, 
consensus on an AUMF.
    The Chairman. It is a little game that is being played. It 
is difficult for me to understand. I mean, on one hand, witness 
after witness after witness comes up here and tells us they 
have all the authorities they need. And then people like you 
and others come up and talk about how it would be nice.
    I guess I do not get it. I voted for an authorization in 
2013. I helped craft it to go against Assad. And we turned away 
from that.
    So certainly, this committee is willing to take up tough 
issues when a declaration of war is occurring.
    And has the President declared war on ISIS? Has he declared 
war on ISIS? Has he laid out a strategy publicly to defeat 
ISIS?
    So I just want to say, I am sorry this cutesy thing that 
has been occurring recently, especially over the last 2 weeks. 
I am having difficulty understanding when I agree with the 
administration. They have every authority that they need to 
defeat and destroy ISIS.
    So I do not know what is up. Maybe the President is 
receiving criticism, and he is trying to deflect that to 
Congress somehow. I do not know what is occurring.
    But all I can say with you, I am in full agreement with the 
administration that the 2001 authorization, while certainly on 
the edges, gives them the authority to do everything they could 
possibly want to do to destroy ISIS. And I believe that 
everyone in the world, everyone in the world, understands that 
Congress wants to see that happen.
     Ambassador Power. Let me be clear. The President has 
himself, as you know, made clear that he has the authority to 
prosecute this campaign effectively. I was responding to 
Senator Kaine's comment that a number of the other countries in 
the coalition have gone through a domestic legislative process 
of----
    The Chairman. They did not have the authorities to do what 
they were doing. They did not have the authorities. Is that 
correct?
     Ambassador Power. I would have to go case by case, and I 
am not familiar with the domestic legal machinations in these 
countries.
    The Chairman. Well, certainly, Great Britain's or U.K.'s 
unwillingness----
     Ambassador Power. Yes, I think in parliamentary systems, 
they need to go through the exercise that they have gone 
through.
    I think this is a reason though that the question is a 
little bit more in the air than it has been over the last 6 
months up in New York.
    The Chairman. I think it is in the air for----
     Ambassador Power. But the President has said he has the 
authorities he needs. There is no resurrecting or surfacing 
this issue for any other reason.
    The Chairman. So you agree 100 percent that the President 
has the authority.
     Ambassador Power. Absolutely.
    The Chairman. Has the President declared war on ISIS, by 
the way?
     Ambassador Power. I believe he has said we are going to 
defeat and destroy ISIS, ISIL.
    The Chairman. Look, we thank you for being here today and 
certainly respect the job that you have. You are very bright 
and intelligent. Sometimes I take issue with you when I feel 
like you are carrying too much the administration's line. But I 
understand sometimes you feel compelled to do so.
    I thank you for being here, and we wish you well as you 
take demonstrative action against UNSCR 1929 being violated 
over the next week or so. Thank you.
    So our next panel will consist of two more outstanding 
witnesses. The first witness is the Honorable John Negroponte, 
vice chairman of McLarty and Associates and former United 
States Permanent Representative to the U.S. Mission to the 
United Nations, the same job our former witness is occupying.
    Our second witness will be Dr. Bruce Jones, vice president 
of the Foreign Policy Program at the Brookings Institute.
    Again, we thank Ambassador Power for being here. Both of 
you have witnessed what just happened. We hope you can 
summarize your thoughts in about 5 minutes. And we look forward 
to questions.
    Again, thank you for being here.
    John, why don't you start?

   STATEMENT OF HON. JOHN NEGROPONTE, VICE CHAIRMAN, MCLARTY 
                  ASSOCIATES, WASHINGTON, D.C.

    Ambassador Negroponte.  Yes, sir. Thank you, Chairman 
Corker, Ranking Member Cardin. It is a pleasure to appear 
before you this morning to discuss United Nations peacekeeping, 
a subject of importance to United States security.
    When I was Ambassador to the United Nations, this subject 
was frequently on the agenda of the U.N. Security Council. 
During my tenure there, peacekeeping operations were stood up 
in Sierra Leone and Liberia, among other countries. And, of 
course, we also renewed a number of operations that continue to 
this day, such as in the Democratic Republic of Congo, the 
Western Sahara, and so-forth.
    I want to state categorically at the outset my conviction 
that United States' support for U.N. peacekeeping operations is 
in the overwhelming national security interests of our country. 
There are three major reasons for, which I hold this view. I 
call these three arguments, first, cost; second, the boots-on-
the-ground argument; and three, legitimacy. I will explain each 
of these thoughts further.
    First, with respect to cost, the United Nations has more 
than 100,000 troops deployed in peacekeeping operations around 
the world today. The approximate cost of deploying these forces 
is $8 billion per year, which, of course, is a small fraction 
of what we spend in our own national defense budget.
    Our share of these costs is less than $3 billion, a small 
fraction, again, and some illustrative figures were cited by 
Senator Cardin, a small fraction of what it would cost to 
deploy United States forces on similar missions.
    This is not a trivial argument. In today's world and with 
the high cost of deploying U.S. forces to overseas missions, 
clearly it is an important advantage for us to know that we 
have considerably less expensive options available to us 
regarding whose forces might be available to carry out an 
intervention we deem to be in our interests.
    Second, the boots-on-the-ground argument, this, of course, 
is an argument related to financial costs. Just as we benefit 
from the lower cost of U.N. peacekeeping budgets as compared to 
our own defense spending, we also do not deploy our own combat 
forces to these situations.
    This is a huge benefit. It is hard to imagine sustained 
public support for a hypothetical situation wherein U.S. combat 
units were deployed to five or 10 peacekeeping operations 
abroad. The costs in U.S. blood and treasure would be 
unacceptably high. And the spotlight on the situations in which 
U.S. forces were involved could undermine the kind of support 
and patience required in some of these very difficult 
situations.
    So support for U.N. PKOs saves us from having to 
contemplate these possibilities. It also enables us to think 
about choices other than a stark selection between U.S. boots 
on the ground, on the one hand, or nothing at all.
    Third, legitimacy. How many times have we undertaken or 
contemplated intervention without the legitimating imprimatur 
of a United Nations Security Council resolution?
    In early 2003, I was in the well of the Security Council 
arguing for a Chapter VII Security Council resolution 
permitting the use of force against Iraq. We failed to achieve 
that resolution and soon thereafter intervened in Iraq with a 
coalition of the willing.
    I am not saying that a PKO would have been appropriate at 
that point in time in Iraq. But what I do want to highlight is 
that we subsequently paid a high domestic and international 
price for intervening in Iraq without the support and blessing 
of a U.N. Security Council resolution.
    By definition, a U.N. peacekeeping operation has consensus 
support within the P5 and the blessing of a Security Council 
resolution.
    This is an important political and legal advantage, which 
should not be dismissed lightly.
    Senator Corker, Ranking Member Cardin, I know there are 
issues regarding the effectiveness, comportment, and leadership 
of some PKOs, and these are issues that will require continued 
attention and effort from troop-contributing and other U.N. 
members alike. And given our leadership role in the world and 
our status as the U.N.'s largest single financial contributor, 
we have a special responsibility in this regard. But whatever 
imperfections or blemishes might exist in the U.N. peacekeeping 
setup, it is our responsibility to help address these issues in 
a constructive way.
    With steady engagement from the U.S. and others, I foresee 
continued improvement in the performance and utility of PKOs 
and even their more creative use in addressing some of the very 
difficult security challenges around the globe.
    Thank you for the opportunity to appear before the 
committee on such an important topic. I would be pleased to try 
to answer any questions.
    [The prepared statement of Ambassador Negroponte follows:]


             Prepared Statement of Hon. John D. Negroponte

    Chairman Corker, Ranking Member Cardin, Members of the Senate 
Foreign Relations Committee, it is a pleasure to appear before you this 
morning to discuss United Nations Peacekeeping, a subject of importance 
to United States security.
    When I was Ambassador to the United Nations, this subject was 
frequently on the agenda of the U.N. Security Council. During my tenure 
there peacekeeping operations were stood up in Sierra Leone and 
Liberia, among other countries and, of course, we also renewed a number 
of operations that continue to this day, such as in the Democratic 
Republic of Congo, the Western Sahara and so-forth.
    I want to state categorically at the outset my conviction that 
United States support for U.N. peacekeeping operations is in the 
overwhelming national security interest of our country. There are three 
major reasons for which I hold this view. I call these three arguments: 
1) Cost; 2) ``Boots on the Ground''; and 3) Legitimacy. I will explain 
each of these three thoughts further. But before I do, let me mention 
what I consider to be the fundamental rationale for PKO's in the first 
place. Situations arise around the world, either because of state-to-
state conflict, civil strife or state failure that require outside 
forces to maintain peace and order. And these forces are frequently 
required in substantial numbers because numbers matter when it comes to 
keeping the peace. Send peacekeepers in adequate numbers to deal with a 
situation and their presence can have a rapid calming effect. Send them 
in insufficient numbers and their deterrent effect can be degraded, 
thereby inviting trouble from those opposed to the peace we are trying 
to uphold. More and more, U.N. peacekeepers have been called upon to 
maintain the peace in situations of civil strife, especially in Africa. 
And protecting endangered civilians has increasingly been included in 
their mandates. Though the record of U.N. PKO's has been mixed, their 
efforts over the years have resulted in some important successes.
    Let me return to the three factors I alluded to earlier: 1) First, 
cost: The U.N. has more than 100,000 troops deployed in PKO's around 
the world today. The approximate cost of deploying these forces is $8 
billion per year. Our share of these costs is less than $3 billion, a 
small fraction of what it would cost to deploy US forces on similar 
missions. This not a trivial argument. In today's world and with the 
high cost of deploying US forces to overseas missions, clearly it is an 
important advantage for us to know that we have considerably less 
expensive options available to us regarding whose forces might be 
available to carry out an intervention we deem to be in our interest;
    2) Second: The ``Boots on the Ground'' argument: This of course is 
an argument related to financial costs. Just as we benefit from the 
lower cost of U.N. peacekeeping budgets as compared to our own defense 
spending, we also do not deploy our own combat forces to these 
situations. This is a huge benefit. It is hard to imagine sustained 
public support for a hypothetical situation wherein US combat units 
were deployed to five or ten PKO's abroad. The costs in US blood and 
treasure would be unacceptably high and the spotlight on the situations 
in which US forces were involved could undermine the kind of public 
support and patience required in some of these very difficult 
situations. So, support for U.N. PKO's saves us from having to 
contemplate these possibilities. It also enables us to think about 
choices other than US boots on the ground or nothing at all;
    3) Third, Legitimacy: How many times have we undertaken or 
contemplated intervention without the legitimating imprimatur of a U.N. 
Security Council Resolution? In early 2003 I was in the well of the 
Security Council arguing for a Chapter VII UNSC resolution permitting 
the use of force against Iraq. We failed to achieve that resolution and 
soon thereafter intervened in Iraq with a coalition of the willing. I 
am not saying that a PKO would have been appropriate at that point in 
time in Iraq. But what I do want to highlight is that we subsequently 
paid a high domestic and international price for intervening in Iraq 
without the support and blessing of a UNSC resolution. By definition, a 
U.N. PKO has consensus support within the P-5 and the blessing of a 
Security Council Resolution. This is an important political and legal 
advantage which should not be dismissed lightly.
    Senator Corker, Ranking Member Cardin, Members of the Committee: I 
know there are issues regarding the effectiveness, comportment and 
leadership of some PKO's; and these are issues that will require 
continued attention and effort from troop contributing and other U.N. 
members alike. And given our leadership role in the world and our 
status as the U.N.'s largest single financial contributor, we have a 
special responsibility in this regard. But whatever imperfections or 
blemishes might exist in the U.N. Peacekeeping setup, it is our 
responsibility to help address these issues in a constructive way. With 
steady engagement from the US and others, I foresee continued 
improvement in the performance and utility of PKO's and even their more 
creative use in addressing some of the very difficult security 
challenges around the globe.
    Thank you for the opportunity to appear before the Committee on 
such an important topic. I would be pleased to try to answer any 
questions you might have.


    The Chairman. Thank you so much.
    Dr. Jones?

  STATEMENT OF DR. BRUCE JONES, VICE PRESIDENT AND DIRECTOR, 
FOREIGN POLICY PROGRAM, BROOKINGS INSTITUTION, WASHINGTON, D.C.

    Dr. Jones. Thank you very much. Chairman Corker, Ranking 
Member Cardin, thank you for having me appear before this body, 
and thank you for your leadership in sustaining attention to 
this issue.
    We have covered a lot of ground, so I will be brief and 
just try to reinforce a couple of points and raise a couple of 
additional ones.
    I think this body well understands the purpose of 
peacekeeping is to give the United States a tool for what I 
have described as manning the outer perimeter, for burden-
sharing in conflicts where we have an interest but we do not 
want to have to deploy U.S. forces or tackle the issue 
ourselves. I think that is well-understood in this body.
    I think it is important to remember that in the majority of 
the cases where the U.N. is deployed, it is not deployed alone. 
It is often a regional organization and the U.N. co-deployed in 
a hybrid operation. I think we do not focus on that enough. The 
U.N. is an important part of the equation, but it is not the 
only part of the equation. And we need to sustain attention to 
the way that regional organizations expand the reach of the 
U.N. and reinforce what the U.N. can do.
    That being said, of course, the U.N., as you as you both 
highlighted, as a burden-sharing tool, as a global burden-
sharing tool, gives us the capacity to reach across the globe, 
to get Indian troops to work with us in Central Africa, or 
Brazilian troops to work with us in East Timor as they did, or 
European forces working with us in Haiti, that regional 
organizations cannot perform.
    And so for all its flaws and weaknesses, the U.N. is the 
only genuinely global burden-sharing tool we have. And I think 
it is extremely important at a time when--Senator Murphy I 
think mentioned Colombia, but there are others like Korea and 
Indonesia and Brazil, rising democracies who want to do more on 
the international stage. The U.N. is the only tool that they 
have to do that.
    So how do we improve the U.N.'s performance? I think of 
this as having four dimensions: effectiveness, efficiency, 
legitimacy, and leadership.
    Effectiveness, I want to reinforce something that 
Ambassador Power said that I think is important, which is 
bringing countries with advanced military capabilities back 
into the U.N. A number of you stressed the complexity of the 
challenges that the U.N. confronts. I think we have to be clear 
eyed about the fact in a number of cases, the U.N. is operating 
in theaters where transnational terrorist organizations also 
are operating. Those are not challenges that can be met by 
troops with low-order capabilities.
    When we look at the situation in Mali, when we look at the 
situation in different contexts, we are going to have to see 
peacekeeping have within it countries with advanced military 
capabilities to perform the functions of protection of 
civilians and implementation of mandates. So I am very 
supportive of the administration efforts to bring European and 
rising states back into peacekeeping.
    An additional point that I would make, and again, Senator 
Murphy touched on it, is that there are different ways that the 
U.N. can structure its missions. We tend to focus on blue 
helmet operations, which are commanded by the Secretary. There 
is actually an alternative, which are multinational force 
operations, where a single member state takes the command. And 
that is sometimes an effective tool, because there are member 
states like Canada and Australia and others who have a far 
higher degree of capability in command and control and 
intelligence than the U.N. Secretary has at his disposal. That 
variation of using an U.N.-authorized multinational force is 
something I think we should be thinking about more than we 
sometimes do.
    Quickly, on efficiency, nobody would accuse the U.N. of 
being an efficient organization. But it has made an important 
step forward with the creation of the Department of Field 
Support, which is a separate tool to structure and manage the 
U.N. field operations. The absurdity is that the politics of 
the General Assembly means that the Department of Field Support 
still has to run all of its decisions past the Department of 
Management, which is the headquarters tool. So the same tool 
that manages workshops and conferences in New York has to 
approve all the decisions of a more nimble tool, the Department 
of Field Support.
    I think one of the things the United States could do is 
work in a coalition to change that, so that the Department of 
Field Support has more direct authority to oversee and 
implement peacekeeping operations without that kind of extra 
layer of a dual-key system, which is inefficient. And, of 
course, we have to keep working on this scale assessment issue.
    Third, I would just reiterate the things that are being 
said on sexual exploitation. I think the U.N. makes a 
fundamental mistake when it does not recognize that even though 
this is an issue of a minority of troops and a minority of 
missions, it severely erodes the legitimacy of the U.N. on the 
ground and in capitals.
    You have all said a number of things already about the 
United States putting the right kind of pressure on the U.N. to 
live up to a zero-tolerance policy, which, rather belatedly, 
Ban Ki-Moon came to.
    And that goes to my last point, and I will end here, which 
is that this is also about leadership. We are coming to the end 
of Ban Ki-Moon's term, and I think it should be a matter of 
priority for the United States, when they get into the business 
of selecting a new Secretary General, to be paying attention to 
the question of whether they are focused on the effectiveness 
and efficiency of the U.N. in contributing to international 
peace and security and to work closely with the Secretary 
General when she or he is selected and other members of the P5 
to make sure that she has available to her a deep roster of 
political organizational talent on which to draw in selecting 
top officials for the management of political peacekeeping and 
humanitarian operations.
    I will end there.


    [The prepared statement of Dr. Jones follows:]

                  Prepared Statment of Dr. Bruce Jones

    Chairman Corker, Ranking Member Cardin, and Members of the 
Committee, thank you for the opportunity to address this body on the 
timely and consequential subject of peacekeeping and the U.S. national 
interest.
    I'd like to start with four main points, and then suggest some key 
areas for reform.
    First, when we address the subject of international peacekeeping, 
we have to start with an essential question: does the United States 
want to have at its disposal a tool for burden-sharing for far-flung 
crises, or does it want to do the job itself? That's the fundamental 
issue.
    The right way to think about international peacekeeping is as a 
tool for sharing the burden of ``manning the outer perimeter.'' We're 
never going to rely on international peacekeeping for core security 
tasks, but when we move beyond those matters of primary national 
security, we have three choices: do nothing, and live with the 
consequences--in the form of refugees, in the form of spreading 
instability, in the form of safe havens for terror networks; tackle 
these problems ourselves--even when they arise in places like the 
Central African Republic or northern Uganda or Yemen or northern Mali; 
or build and manage multilateral tools for maintaining stability and 
security in non-vital regions that distribute the commitment among many 
nations. It seems evident that the third of these is the only credible 
option--building tools for burden-sharing in the mission to uphold 
stability. The existence of such tools doesn't preclude U.S. 
engagement, but it gives us options.
    Second, then, we have to look at the tools at our disposal, 
including but not limited to the U.N. It's rarely the case that the 
U.N. is the sole tool we are going to use to tackle a problem of civil 
war or humanitarian crisis. There are regional organizations, NATO, the 
African Union, and coalitions of the willing; as well as tools for the 
development of economic and governance institutions, such as the World 
Bank. In the vast majority of cases today, two or more of these 
entities are involved in producing solutions or tamping down problems. 
One of the weaknesses of current U.S. policy is that we treat these 
institutions or tools as if they are stand-alone entities; in 
actuality, they almost always work in concert, albeit in imperfect 
ways. This is all the more important given that we now confront a U.N. 
Security Council in which Russia is inclined to block unified action, 
at least in cases where it is directly involved.
    Third, that being said, we should take the signal from the reality 
that in the vast majority of those cases, the U.N. does play an 
important role--in the humanitarian response; in the political 
response; and in the security response--all of which are supported 
through the peacekeeping tool. The reason the U.N. shows up in so many 
cases arises from a very basic but very important fact: The United 
Nations is a global institution, rather than a regional one, making 
it's tools global in scope. U.N. peacekeeping is the only mechanism we 
have at our disposal that allows us to combine forces from every region 
in the world to tackle crises or conflicts wherever they occur. 
Regional organizations can't produce Indian troops working with us in 
central Africa; or Brazilian troops working with us in East Timor, as 
they did; or European forces working with us in Haiti. Thus, for all 
its flaws and weaknesses, the U.N. is the only tool available to us for 
genuinely global burden-sharing. And that's all the more important at a 
point in time when rising democracies like Korea, Indonesia, and Brazil 
want to do more, not less, on the international stage, and don't have 
any alternatives to the U.N.
    Fourth, and critically, when we hear about peacekeeping, we hear 
most about failures and setbacks. Even the most optimistic literature 
about U.N. and international peacekeeping suggests that it fails 
approximately 40% of the time. But that should not obscure the 60% of 
the time when it succeeds, or succeeds in part--either helping to end a 
war, securing a part of territory, or protecting a portion of a 
population.\1\ Success is not categorized by the building, or 
rebuilding, of secure democracies overnight--we have to have maintain 
reasonable expectations of peacekeeping.
---------------------------------------------------------------------------
    \1\ For the comprehensive study behind these figures, see Virginia 
Page Fortna's 2008 book: ``Does Peacekeeping Work?'', specifically 
chapter five. See: Fortna, V. P. (2008). Does Peacekeeping Work? 
Princeton, NJ: Princeton University Press.
---------------------------------------------------------------------------
    So how do we improve the ratio between success and failure? We have 
to work on four fronts:


   This is about effectiveness--and first and foremost that means 
        getting better quality troops into the U.N.

   It's about efficiency, especially cost efficiency.

   It's about putting an end to sexual exploitation and abuse--actions 
        that erode the local and international legitimacy of 
        peacekeeping.

   And it's about leadership.


    The most important issue is effectiveness--if the U.N. isn't 
helping to create a solution, then the question of whether its 
operations are efficient or legitimate is moot. The most important 
determinant of effectiveness is the quality of troops that participate 
in operations--that is to say, their capacity to undertake complex 
stabilization operations. When conflicts are relatively easy, i.e. when 
the state or the rebels in question are of low capacity, then the U.N. 
can draw troops from whichever nation is willing, gathering a coalition 
for action that can keep the lid on things. But, as we confront more 
resilient actors in tougher settings--especially as the geography of 
intra-state and proxy conflict shifts from sub-Saharan Africa to the 
Middle East and North Africa--we need the participation of both the 
European allies and the rising powers if we're going to have the 
capable troops needed to produce security outcomes required on the 
ground. This is all the more true as we deal with the reality that in a 
growing portion of wars, at least one actor is engaged in terrorist 
activities, often with a transnational link.
    I am therefore very supportive of the Obama Administration's 
efforts--colloquially, the Biden initiative--to bring European actors 
back into the fold and engage rising states in U.N. peacekeeping 
efforts for the provision of both troops and enabling capacities.\2\
---------------------------------------------------------------------------
    \2\ For an overview of the Biden initiative, see: Office of the 
Press Secretary, The White House. (2014, September 26). Summit on U.N. 
Peacekeeping [Fact sheet]. Retrieved December 6, 2015, from 
Whitehouse.gov website: https://www.whitehouse.gov/the-press-office/
2014/09/26/fact-sheet-summit-un-peacekeeping.
---------------------------------------------------------------------------
    Effectiveness also means being flexible about how we structure 
these forces. We tend to focus on the traditional ``blue helmet'' 
operations, that is, operations controlled centrally by the U.N. 
Secretariat. There's a powerful alternative in the U.N.'s toolkit, 
namely U.N.-mandated multi-national forces. These are operations that 
fly under a U.N. banner but are led and commanded by an individual 
state, rather than the U.N. Secretariat. Australia has led such 
multinational forces (in East Timor), as has Canada (in the Congo). The 
United States commands such a force in the Sinai (MFO Sinai). We should 
put more emphasis on using this option, and some of its variants.
    It would be worth the effort for the United States to do a detailed 
examination of the range of alternatives available to the U.N.--from 
blue helmet operations to multi-national forces to so-called hybrid 
operations (where the U.N. and a regional organization fuse their 
forces into a single structure); such a study would enable the United 
States to better support and more firmly encourage the U.N. to explore 
a variety of options when confronted with an emerging conflict.
    Then let's turn to efficiency. Nobody would accuse the U.N. of 
being an efficient organization. However, to be fair, during Ban Ki-
Moon's term, two dynamic women, Susanna Malcorra and Ameerah Haq, 
effectively built the U.N.'s Department of Field Support into a more 
robust tool for undertaking complex field operations.
    Unfortunately, the U.N.'s rules still mean that decisions made in 
the Department of Field Support are subject to the arcane and 
cumbersome tools of the Department of Management, which oversees 
headquarters operations. This dual key system introduces major 
inefficiencies and unnecessary redundancy. The United States could 
lead, or at a minimum offer support for, a political coalition to build 
on the new proposals from Ban Ki-Moon's high-level panel to increase 
the flexibility and efficiency of the U.N.'s field support tools.\3\ 
This set of ideas is similar in spirit to a proposal made by former 
U.S. permanent representative to the United Nations Ambassador John 
Bolton for stand-alone management arrangements for U.N. peacekeeping.
---------------------------------------------------------------------------
    \3\ The High-level Independent Panel on Peace Operations was 
convened on 31 October 2014 ``to undertake a thorough review of United 
Nations peace operations today and the emerging needs of the future.'' 
See: ``Report of the High-level Independent Panel on Peace Operations 
on Uniting Our Strengths for Peace: Politics, Partnership and People'' 
[PDF]. (2015, June). Retrieved from http://www.un.org/sg/pdf/HIPPO--
Report--1--June--2015.pdf.
---------------------------------------------------------------------------
    Over time, of course, the United States will also have to secure a 
better arrangement for U.N. peacekeeping dues: a situation where the 
U.S. share of the global economy has shrunk from approximately 25% to 
21%, and its share of U.N. peacekeeping dues has grown to 28%, is 
obviously unsustainable.\4\ China has shown that it is willing to do 
more in voluntary funding of the U.N.'s operations, and its own rates 
continue to rise; but eventually this scale of assessment will have to 
be reworked. But the United States also has to recognize that, contra 
the ``American decline'' narrative, it is still the only global power, 
the only power with the capability to act in every theater, and thus 
the actor that most profits in real terms from burden-sharing.
---------------------------------------------------------------------------
    \4\ The U.N.'s figures for fiscal year 2016 have the United States 
contributing 28.38% of total peacekeeping dues. See: ``Financing 
Peacekeeping.'' (n.d.). Retrieved December 6, 2015, from U.N.org 
website: http://www.un.org/en/peacekeeping/operations/financing.shtml.
---------------------------------------------------------------------------
    The U.N. also has to address a problem that eats away at its 
legitimacy--sexual exploitation and abuse. No other issue so profoundly 
erodes the trust of local populations, or the confidence of the 
international community, in U.N. operations than incidences of sexual 
misconduct or abuse by U.N. peacekeepers. Let's be clear: this is a 
problem of a very small number of troops in a minority of operations. 
But the U.N. leadership makes a grave mistake when it doesn't recognize 
that it's a fundamental challenge to the legitimacy of U.N. operations. 
Kofi Annan eventually recognized this, and adopted a zero tolerance 
strategy; and, rather belatedly, Ban Ki-moon has recognized this, and 
has adopted a new, tougher policy.\5\ The United States should be 
vigilant in maintaining the necessary oversight to ensure that the 
Secretary-General fulfills the promise of this new policy.
---------------------------------------------------------------------------
    \5\ For a 2004 statement from Secretary General Kofi Annan, see: 
Annan, K. (2004, November 19). Statement by the Secretary-General on 
allegations of sexual exploitation and abuse in the U.N. Mission in the 
Democratic Republic of the Congo (MONUC) [Press release]. Retrieved 
from http://www.un.org/sg/statements/?nid=1189. For Secretary-General 
Ban's recent statements on sexual assault in the Central African 
Republic, Ban, K.-M. (2015, August 12). Opening remarks to press on the 
Central African Republic [Press release]. Retrieved from http://
www.un.org/apps/news/infocus/sgspeeches/statments--
full.asp?statID=2714#.VmTuiIv45UQ
---------------------------------------------------------------------------
    Finally, this is about leadership--at headquarters, and in the 
field. There's no percentage in commenting here on personalities. And 
we're coming to the end of Ban Ki-moon's term, so soon there will be a 
new leadership team at the U.N. In preparation for this new window of 
opportunity, the United States should elevate the prioritization of the 
identification and the selection of a Secretary-General committed to 
effective and efficient U.N. contributions to international security; 
and we should work closely with the incoming Secretary-General and the 
other members of the P5 to make sure that she has available to her a 
deep roster of political and organizational talent from which to draw 
in selecting top officials for the management of political, 
peacekeeping, and humanitarian operations.
    It has become fashionable to describe the United States as a power 
in decline. I disagree. The United States is the only power with 
political, economic, and military clout both at a global level and in 
every region of the world. America is the only power capable of 
convening states (and actors beyond states) of every stripe, of every 
income level, and from every region. It has an extraordinary suite of 
allies. The dynamism of the American private sector has been on vivid 
display in the energy renaissance and the economic recovery from the 
2009 global financial crisis.\6\ China, India, and other actors have 
rising capacity to be sure, and with it, spreading interests. But for 
now, only the United States has a global responsibility, and only the 
United States can build the coalitions and the multilateral instruments 
for global security. A peacekeeping tool that is adequately manned, 
resourced, and supported is an important tool in upholding that 
security.
---------------------------------------------------------------------------
    \6\ For a comprehensive account of these factors, see: Jones, B. 
(2014). ``Still Ours to Lead: America, Rising Powers, and the Tension 
between Rivalry and Restraint.'' Washington, DC: Brookings Institution 
Press.
---------------------------------------------------------------------------
    Thus, only with sustained U.S. attention will it be possible to 
ensure that we have available to us a sufficient suite of tools for 
stabilization and peacekeeping, at the U.N. and beyond, to meet the 
American interests of supporting stability without over taxing U.S. 
treasure and overextending U.S. forces.
    Thank you again for the opportunity to address this committee.


    The Chairman. Well, thank you both. I know we got off on a 
lot of different topics in the last panel that were a little 
different than the main subject, but it is rare we have the 
opportunity to talk to the Ambassador.
    We thank you both. We know you are both friends. And 
obviously, with just Ben and I here, even though this will all 
be part of the record, which is appreciated, this is more of a 
conversation.
    You both have experienced the frustration of seeing 
peacekeeping operations where people were being abused and 
brutalized, and yet the caveats that existed kept peacekeepers 
from really being able to intervene. So we have moved in a more 
forward manner, which from my standpoint is welcomed as we have 
seen helpless people be brutalized in certain areas.
    What are, though, some of the challenges that, from your 
perspective, we most need to think about relative to that? I 
mean, in essence, it is an extension in some cases of actually 
carrying out semi-kinetic activities, right? So what are some 
of the things that we as a body ought to be thinking about as 
we progress down that path?
    Dr. Jones. Thank you very much. That is an excellent 
question, and I think it is extremely well-put.
    It is interesting to observe. At the U.N., I think you face 
two challenges. One, over time, as countries with more advanced 
capabilities, Europeans and others, have not been participating 
in peacekeeping, the practice has sort of lowered to the 
capability of the troops. So the willingness to go out and 
undertake kinetic activities, to protect civilians, to defeat 
rebel forces, et cetera, has diminished, and that is a 
challenge.
    So getting more capable troops back into peacekeeping is 
the first necessary step.
    I think an important question is what can the United States 
do to stiffen their will or to ensure that they are going to 
have will or support. One of the things I would put on the 
table--by the way, I would say, I am not among those who think 
that the United States has to put troops into peacekeeping. I 
do not think that that is the correct approach. I think that 
the United States has unique capabilities in airlift and 
intelligence and other kinds of things that are more important.
    I would add to it over-the-horizon extraction. If we are 
going to ask countries to put troops on the line and take 
risks, first of all, it is helpful if they are more capable 
troops, because they are undertaking that mission. But if we 
are willing to provide over-the-horizon extraction and support 
and defense capabilities, the risks that they are taking is 
lessened. So I think we can be in a stronger position in 
encouraging people to take those risks and to take those 
flights if we are willing to help them if they get stuck.
    Ambassador Negroponte.  If I could add, first of all, I 
would definitely agree with Dr. Jones that capacity-building, 
and I think that is what he was talking about in the instance, 
is really one of the most important challenges, if not the most 
important challenge we face with respect to U.N. peacekeeping.
    There was also mentioned earlier in the testimony this 
morning about the time it takes sometimes to mobilize some of 
these missions. I think the Security Council and the 
peacekeeping department has become more effective at that.
    I would add, with respect to capacity-building, the 
challenge we have in ensuring that there is sort of uniform 
level of capacity amongst the officers that are leading these 
different missions around the world.
    I am not aware that the U.N. has any kind of peacekeeping 
academy. It would seem to me, if you have military deployments 
in excess of 100,000 people around the world, I mean, we have 
an academy for each of our four uniformed services in the 
United States. And I wonder if some kind of training 
institution, where you would cycle current and potential 
leaders of future peacekeeping missions, whether that would not 
be an idea worth consideration. I mean, you would have to sit 
down at the drawing boards and think about how you do that, but 
anyway, that is one idea I would like to leave for your 
consideration.
    The Chairman. Dr. Jones, you mentioned that you do not 
think it is appropriate for the U.S. to have ground troops, if 
you will, involved. As it relates to our NATO efforts, we 
obviously have everything involved, money, equipment, 
personnel. Again, we are the provider of security services. 
Unfortunately, most of the members of NATO are consumers of 
security services.
    Here, we are the largest provider of monetary resources, 
and, as I understand it, we have committed 42 officers to be 
part of peacekeeping.
    But just for the record, could you tease out why it is you 
said what you just said? You say we should not be involved with 
ground troops because?
    Dr. Jones. Thank you. It comes up a lot. It has come up a 
lot in the last year as the administration has been pushing the 
Europeans and other states to do more. One of the responses has 
been, ``Well, are you going to? Are you going to put troops 
in?'' As I said, I think the things that only the United States 
can do include airlift, signals intelligence, and some of the 
command and control functions that you just referred to.
    I would not be doctrinaire about it. I do not think there 
is no circumstance where the United States should put troops 
in. I would recall that we have actually, historically. In 
1995, the United States had troops under the command of a 
Canadian-led multinational force in eastern Zaire. We have done 
it. It is not impossible to do.
    But by and large, it seems to me that we are better off 
when other troops are willing to be on the frontlines of this. 
Senator Murphy talked about the notion of having multiethnic 
and multinational forces.
    The simple reality is that the United States is going to 
attract attention. There are going to be a lot of people who 
want to fight the United States. I think we are simply raising 
a red flag to a bull when we put U.S. forces on the ground in a 
number of these situations. We are much better off performing 
those functions that only we can provide, as well, as I 
mentioned, over-the-horizon rescue and support operations, and 
ask others to be on the frontlines.
    The Chairman. It is generally the same approach, as has 
been discussed by most, and that is in Syria we would like to 
have Arab faces on the ground more predominantly than Western 
faces, right? It just helps ensure that there is a more 
cohesive nature, if you will, relative to what is happening on 
the ground.
    Typically, we have had a policy, have we not, that U.S. 
troops are not going to be commanded by people other than U.S. 
officers, too? Is that correct?
    Dr. Jones. We have had that policy. As I said, we have 
occasionally violated it. U.S. forces were under Canadian 
command in multinational force operations in Zaire very 
briefly. But I think as a general rule, it is the right policy.
    And more to the point, as I said, there are simply too many 
occasions in which participation by the United States would 
change the political texture of the force in ways that I think 
would amplify the resistance to the force rather than the 
opposite.
    Ambassador Negroponte.  Whereas the enablers do not 
necessarily have that same kind of a profile, and yet there is 
no other country as capable as we are of producing these vital 
enablers to these missions.
    The Chairman. Ambassador, you have had this role. You have 
been at the United Nations. Senator Cardin, which I appreciate 
deeply, raised the issue of just our payments. We have 22 
percent of the world's gross domestic product and yet we 
contribute 28.5 percent of the budget here.
    Our other ``associates,'' if you will, at the United 
Nations obviously are not doing their part, otherwise our 
amount would not be 28.5 percent.
    We find this same to be the case--I have referred to it now 
three times--at NATO. It is where we desire for things to 
happen, it seems more so than others, and, therefore, we end up 
being financially exposed more than others.
    You have been in this role. Tell us from your perspective 
what we as a country can do to seek equilibrium and to cause 
other countries to play their appropriate roles.
    Ambassador Negroponte.  Well, it is frustrating. And I 
think you are right, Senator, to talk about kind of the 
mysterious ways in which the budget is negotiated, and very 
often right at the end of the year just before Christmas, when 
everyone is in a rush to get out of there. Somehow at 3 o'clock 
in the morning, the U.N. budget gets agreed upon. So sometimes 
you get some rather anomalous situations that will arise.
    But I think we just have to keep working on that. I 
recognize that we have not been as successful as we ought to 
have been in keeping the peacekeeping assessments down.
    But again, in proportion to what it would cost to field 
other kinds of forces or our own military expenditures for our 
own defense establishment, we are talking about relatively 
small amounts of money. Therefore, I think we just need to do 
our best but recognize that we may not achieve everything that 
we hope to achieve in those negotiations.
    But I am also reassured that some countries now are putting 
up more resources than they had before. I am glad to hear that 
China is going to be assessed something on the order of 10 
percent for peacekeeping, which, if I recall correctly, is a 
significant departure from 10 or 15 years ago when their 
contribution was a fraction of that.
    The Chairman. Senator Cardin?
    Senator Cardin. Mr. Ambassador, as you were describing the 
U.N. budget process, I thought you were describing the U.S. 
budget process. [Laughter.]
    Ambassador Negroponte.  I do not know where they learned 
those lessons.
    Senator Cardin. Dr. Jones, thank you very much for your 
service. And you come here with a great deal of expertise on 
the United Nations, having worked as adviser to Secretary 
General.
    Ambassador Negroponte, you served in that position as 
Ambassador, and you have served in so many other positions of 
foreign policy.
    I want to follow up on the reform issues, and I will tell 
you why.
    But first, let me suggest to the chairman, your suggestion 
on training is a very important suggestion. I serve on the 
Board of Visitors of the U.S. Naval Academy, and I see 
firsthand the availability of training at the U.S. Naval 
Academy for some of our allied countries. We do train at our 
service academies foreign students.
    I think an arrangement with the United Nations in regards 
to their peacekeeping command may very well be a viable option 
to get greater capacity. And I would ask our staff to take a 
look at that, to see whether we can look at how our service 
academies could assist in this regard.
    It also helps us, because having a more diversified student 
body at our academies prepares us for the global missions that 
our military command needs to be aware of.
    So I thought that was a very good suggestion, and I would 
ask if our staffs could perhaps follow up on that and see 
whether that is a viable option.
    But I want to talk about the scale of assessments and the 
how these numbers come about. But I put it in context of a 
Senator who strongly supports the United Nations and its 
mission and its budget.
    But if we were to put it a U.N. reform bill on the floor of 
the United States Senate, the type of amendments that would be 
offered and the types of potential restrictions on U.S. 
participation in the United Nations, getting a majority vote, 
perhaps even a 60-vote threshold, is real. The reason for that 
is because of the lack of transparency in the United Nations 
and the illogical way that they go about their budgeting.
    We talk about burden-sharing, and we recognize that it is 
disproportionate, that the U.S. taxpayers have been asked to 
take on a much stronger commitment than the developed 
countries, those who have the capacity to do a lot more. It is 
true in NATO. It is true in our coalitions. It is true in 
individual participation globally. And it is certainly true in 
the United Nations.
    So I understand that we are getting a good value for our 
contributions to the U.N. I never doubt that. I agree with you 
completely. And the peacekeeping missions are critically 
important to the U.S.
    But it seems to me that we have not been as effective as we 
need to in the transparency and reform within the United 
Nations process. And if we do not deal with it in a way that is 
understandable to the U.S. political system, then there could 
be negative consequences to the U.S. participation at the 
United Nations.
    So it is for that reason that I cannot justify a 22 percent 
budget allocation and then 28.5 percent on peacekeeping, 
particularly in light of all the other commitments that U.S. 
taxpayers are making to international security issues. I would 
just like to get your advice as to the most effective way for 
this Senator and for the Congress to weigh in, in a 
constructive way, so that we can get the type of reforms we 
need in the United Nations.
    Ambassador Negroponte.  Well, I am not as current on these 
issues as I was when I was serving in that position, but I was 
the beneficiary of Richard Holbrooke's successful negotiation 
with respect to the last big arrears situation. It took 
incredible work on his part, the kind of work that only Richard 
Holbrooke was capable of. It was jawboning with membership, 
with the secretariat, working hard with Congress, like Ms. 
Power, bringing the Security Council down to visit the Senate, 
which I think was a very, very good idea. I am sure you 
imparted this message to them when you met with them. Those are 
the right people to pass that message to.
    I think it just requires an intensive diplomatic effort 
with these countries to try and correct that situation. I am 
pleased we have a 22 percent assessment for the general 
assessment for the U.N. Holbrooke left that issue somewhat 
unresolved. If I remember correctly, it was 26-point-something-
or-other, and now it has gone up a percentage point or 2 since 
he reached his agreement.
    But I think we just have to work that one really hard. And 
what I would hate to see happen is that the arrears become so 
large that then it becomes some kind of a crisis situation with 
regard to whether or not we are going to continue our support, 
which would undermine our support for the United Nations. That 
is the danger that I think you are describing.
    Dr. Jones. I do not have much to add. I would just add one 
point of context, which is sort of ironical.
    We spent a lot of the last few years hearing countries talk 
about how the United States is in a decline, a relative decline 
in the United States, all this kind of stuff. I profoundly 
disagree with that underlying notion. The reason I mention it 
in this case is, when you look at the scale of assessments, it 
was about 30 percent in the height of the post-Cold War period. 
It declined to about 25 percent as we made continual progress 
to bring the scale of assessment in line with our share of 
world GDP. And it has gone back up over the last 3 years. It 
has gone back up to 28 percent since the global financial 
crisis because we have done much better in recovering from the 
global financial crisis than a number of our allies and 
partners in Europe and others.
    And so it is a kind of irony of the moment that whereas 
people talk about U.S. decline----
    Senator Cardin. It is my understanding that the difference 
between 22 percent and 28 percent is not our share in the 
global economy. It is justified by our seat on the Security 
Council, which many of us interpret it is to bust the 22 
percent cap.
    Dr. Jones. It is both, because the formula starts with what 
is the share of GDP. You pay a premium by being rich, so rich 
countries pay more per share of GDP than poor countries. And 
then we pay an additional premium by virtue of being a 
permanent member. So it was going down as our global share of 
GDP went down, and it has gone back up a little bit. So it is 
just a worth remembering the irony.
    But I do not disagree with anything that Ambassador 
Negroponte said in terms of the need to keep pushing on this.
    And it is an issue that is going to have to be made an 
important priority with the incoming Secretary General. They 
are going to have to make it clear to the incoming Secretary 
General that to sustain support for the United Nations, it is 
impossible to explain to the American public why we pay an 
outsized share of this bill.
    It is true that we have an outsized interest--an outsized 
interest--in the performance. We are the only power that has 
interests in every region of the world and at the global level. 
So we have an outsized interest here as well.
    And to a certain extent, in all honesty, that reduces our 
leverage. Everybody knows that we have an outsized interest in 
these things.
    Senator Cardin. Because we have assumed greater burdens, we 
have even greater burdens.
    Dr. Jones. Correct.
    Senator Cardin. That is an interesting way of looking at 
it.
    Let me ask one last question, if I might.
    Ambassador Power was pretty firm and optimistic about the 
September 28 meeting of the countries that are contributing 
resources to the U.N. peacekeeping. The commitments, she 
continues to state, are just that--commitments. They have not 
been delivered yet.
    Have you had a chance to review the September 28 results? 
And are you optimistic that, in fact, this will have greater 
participation by the countries that are capable of doing more? 
What is your prognosis on this?
    Dr. Jones. Well, I had the honor of being invited to that 
meeting by the administration, so I was there for that. And I 
have been involved in helping the U.N. and the administration 
think through the preparation for it. I am semi-optimistic.
    I think that the Europeans, in particular, as they have 
drawn down in Afghanistan, they have capabilities that they are 
not using. In that context, they can contribute. The Dutch in 
Mali I think are the most important example of what we have 
seen so far.
    I think they recognize they have a deep interest that if 
they are going to come to terms with their migration problem 
and their refugee problem, they have to go and solve it in the 
places where it originates. So they have an interest in helping 
to stabilize conflicts in Africa and beyond. So I am somewhat 
optimistic.
    I would be very optimistic were it not for a very different 
reality, which is Russia and Ukraine, which is causing European 
governments, fully understandably, to reprioritize back to some 
older kinds of concerns about NATO, about the containment of 
Russia, et cetera. That is going to put pressure on European 
defense budgets, and it is going to put pressure on European 
militaries to be worried about things other than conflicts in 
Africa.
    And so the two things are, unfortunately, happening at the 
same time. I think there is a genuine will from Europeans and 
from the other countries like Korea that I mentioned to 
participate in U.N. peacekeeping. But at the same time, we are 
facing new challenges from China, from Russia, et cetera. Those 
are going to put different kinds of pressures.
    So I think she is very right to push the argument. I think 
the administration is right to pursue that initiative. But 
there are going to be other challenges we confront at the same 
time that will I think diminish the full impact that it might 
have had otherwise, unfortunately.
    Ambassador Negroponte.  I think we need to keep the 
spotlight on it. I think that was a great initiative by the 
President and has to be followed up.
    The other thing I might add with respect to contributing 
countries is one encouraging region of the world in that regard 
is the willingness of certain Latin American countries to 
contribute to peacekeeping, global peacekeeping, which they 
have been reluctant to do in the past. I mean, the mention of 
Colombia, for example, and Brazil, too.
    I thought that was encouraging, and I think it is something 
the U.N. needs to avail itself of.
    Senator Cardin. Thank you. Thank you both for your service.
    The Chairman. Thank you.
    One of the great privileges that we have around here is the 
access to people like you who are so respected and have the 
ability to share wisdom with us and experiences. We know that 
every day when we come to work, so we want to thank you for 
your continued involvement in issues of importance to our 
country. Thank you for being here today.
    As you will see, a lot of our members make themselves 
present by asking questions later. So without objection, first 
of all, the record will be open until the close of business 
Friday. But if you could respond in a fairly timely manner, 
that would also be appreciated.
    The Chairman. We thank you for your service to our country, 
and we thank you for being here today.
    And with that, the meeting is adjourned.
    [Whereupon, at 12:04 p.m., the hearing was adjourned.]


                                ------                                


              Additional Material Submitted for the Record


     Responses to Questions for the Record Submitted to Ambassador 
                  Samantha Power by Senator Bob Corker


    Question. During the September U.N. Peacekeeping Summit, the United 
States, as well as other member states, made significant commitments to 
enhancing peacekeeping capabilities. The administration has stated that 
funding for this will not come from U.S. assessed contributions to 
international peacekeeping (CIPA account) but from elsewhere.

   What is the approximate funding figure the President will be 
        requesting in his budget to fund these commitments?
   From what agencies and accounts will this funding be drawn?


    Answer. The Leaders' Summit on September 28 generated commitments 
by 49 countries plus the EU, NATO, and African Union to contribute 
aviation, infantry, police, and other critical support to U.N. 
peacekeeping operations. The Summit demonstrated the multiplier effect 
that can occur when countries come together to address some of the 
world's most pressing problems.
    The Department of State is participating in an interagency 
discussion about steps the United States can take to continue to ensure 
that the United Nations has the means to fulfill its role in preventing 
the outbreak, escalation, and spread of conflicts. The Department of 
Defense is an important partner in this discussion.
    Currently we do not foresee new activities having any significant 
impact on FY 2016 funding requirements. There may be minor changes as 
we refocus some of our efforts, and we look forward to working with you 
on any adjustments going forward.
    We are currently formulating the FY 2017 President's Budget, which 
will be presented to Congress in early February 2017, and we will 
consult with you regarding any resource requirements for FY 2017 at 
that time.


    Question. I recently wrote to Secretary Kerry regarding steps to 
reduce the risk of peacekeeper sexual exploitation and abuse. This 
appears to be a chronic problem for the U.N. I understand that the U.S. 
Mission to the United Nations created an internal task force to address 
this issue and that an action plan exists.

   What policy proposals are being considered as part of the action 
        plan and what steps will you take to implement them?
   Do you think this is a priority for the current U.N. leadership? If 
        so, what makes you believe that this time is different?
   How will the U.S. Mission at the United Nations press the next 
        Secretary General to maintain the momentum on addressing sexual 
        exploitation and abuse?


    Answer. The U.S. Mission to the U.N. created an internal task force 
on sexual exploitation and abuse (SEA) to take a serious look at the 
causes of and solutions to SEA in U.N. peacekeeping, a reflection of 
our government-wide commitment to preventing SEA. The measures the task 
force is reviewing include how best to support and/or put pressure on 
the U.N. and its member states as appropriate. The task force is 
examining how best to engage member states, both bilaterally and 
through multilateral fora, on both better policy and practice.
    The U.N. Secretary-General has expressed deep commitment to the 
initiatives he championed regarding SEA, as seen outlined in his latest 
reports involving SEA, including his own implementation report on the 
recommendations of the High Level Independent Panel on Peace 
Operations. Next, we expect that his February 2016 annual report on SEA 
will provide country-specific information on those troop and police 
contributing countries (TCCs/PCCs) whose uniformed personnel face 
credible allegations of SEA.
    More broadly, the U.N. is in the process of implementing more than 
40 proposals from the Secretary-General's February 2015 report. The 
most significant measures include: establishing immediate response 
teams in peacekeeping missions to gather and preserve evidence for use 
in investigations; adopting a six-month timeline for completion of 
investigations of SEA and calling on member states to adhere to the 
same timeline; strengthening its complaint reception framework to 
ensure mechanisms are in place within communities where people can come 
forward, in confidence, to raise complaints regarding U.N. personnel; 
strengthening administrative measures against civilian staff members 
found to have committed SEA, including withholding entitlements; 
suspending pay to TCCs/PCCs for personnel accused of SEA on the basis 
of credible allegations; and, setting out the framework for a trust 
fund to provide support and assistance to survivors and children born 
as a result of sexual exploitation and abuse by U.N. peacekeepers.
    We will begin discussions on the issue of sexual misconduct with 
the next Secretary-General from the beginning of his or her tenure, to 
ensure that reforms set in motion by the current Secretary-General are 
strengthened and institutionalized, and to urge the next Secretary-
General's continued engagement. We will continue to press at all 
levels, in New York, in the field, and with troop and police 
contributing countries on this serious issue.


    Question. With respect to peacekeeping operations, generally 
speaking, the U.N. Security Council authorizes the mission while the 
U.N. Secretary General, through the office of peacekeeping operations, 
runs the mission.

   How actively involved is the U.N. Security Council in oversight of 
        the mission? How often does the Council travel to review a 
        mission's operations and progress, firsthand?
   What are your thoughts on having the U.N. Security Council 
        establish, for each mission, its own ombudsman with full 
        authority to review and conduct oversight of the peacekeeping 
        mission and who would report directly to the Security Council 
        when mission mandates are renewed?


    Answer. As the body responsible for authorizing U.N. peacekeeping 
operations, the Security Council (UNSC) actively seeks and receives 
through several different channels reporting, briefings, and other 
information to oversee each mission's performance. Such information is 
critically important in helping the UNSC to determine what each 
mission's mandate should be, the size and composition of the force 
needed, the duration of the mandate, as well as any other needed 
changes or adjustments.
    The UNSC makes trips, as needed and as possible, throughout the 
year to peacekeeping missions and trouble spots. For example, during 
2015, Security Council members visited Haiti, the Central African 
Republic, and Burundi, as well as the headquarters of the African Union 
in Addis Ababa. However, the UNSC's primary oversight is conducted in 
New York. The formal channels for UNSC oversight include written 
reports by the Secretary-General to the UNSC, which the Council 
generally requests on a quarterly or semi-annual basis; regular oral 
briefings to the UNSC by U.N. officials, as well as by the Special 
Representative of the Secretary-General (SRSG) responsible for a 
particular peacekeeping mission; and consultations in the UNSC on 
mandate renewal resolutions in which UNSC members discuss any changes 
needed to a mission's mandate. Such changes may include updates to the 
mandated tasks, associated increases or reductions in the number of 
uniformed personnel, and modifications in the composition of the force. 
The Council can also request additional assessments of missions when it 
is considering reconfiguration, drawdown, or transition. The Council 
often asks the Secretary-General to identify benchmarks for progress 
and to incorporate an evaluation of the mission against those 
benchmarks in his regular reports.
    Council members also have access to a number of other oversight 
materials produced by various U.N. mechanisms, such as the U.N.'s 
Office of Internal Oversight Services (OIOS), which provides oversight 
for the larger U.N. system; its audits and evaluation reports are 
available online. The Secretary-General also releases annual budget 
performance reports on each peacekeeping operation.
    The United States continues to press the U.N. for greater oversight 
of its peacekeeping missions, particularly in the areas of financial 
controls and conduct and discipline. We believe the conduct and 
discipline units in missions must be stronger and better staffed. The 
United States was instrumental in the creation of, and supports the 
strengthening of, the Office of the Director for Peacekeeping Strategic 
Partnership, which is intended to provide services akin to an inspector 
general to identify gaps that affect the delivery of mandates by U.N. 
peacekeeping missions and make recommendations on systemic issues 
related to U.N. peacekeeping operations. We also believe that more 
comprehensive reporting by the Secretary-General on performance would 
improve the Council's ability to exercise its oversight 
responsibilities. We have called for and support the U.N.'s evaluation 
of the impact of specific mandated tasks, such as the U.N.'s current 
revamping of its indicators to evaluate the impact of protection of 
civilians tasks.
    The idea of the UNSC directly appointing an ombudsperson for each 
U.N. peacekeeping mission raises a number of issues that require 
careful consideration, including:

   Scope of Mandate: The Council would need to determine the issues 
        appropriately addressed by an ombudsperson to avoid conflicting 
        with the oversight responsibilities of the SRSG for the 
        management of his/her mission's personnel and resources or the 
        existing auditing, conduct and discipline, performance, and 
        evaluation mechanisms in the U.N. system, including those 
        mentioned above.
   Relationship vis-a-vis the SRSG: Currently, the SRSG is responsible 
        for overseeing the overall effectiveness of the mission under 
        his or her charge. The appointment of an ombudsperson raises 
        the potential for conflicting signals between SRSGs and Force 
        Commanders and ombudspersons, which could be counterproductive 
        to the mission's performance if such dynamics undermine the 
        authority of the SRSG or the Force Commander to direct and 
        manage the mission or their strategies for achieving the 
        mission's mandate.
   Selection Process and Funding Issues: The Council would need to 
        determine how it would select ombudspersons and their staffs, 
        if not through the Secretary-General. It would also have to 
        determine how to fund ombudspersons positions and staffs if the 
        positions were not established through the UNGA Fifth Committee 
        process. We would welcome further staff-level discussions on 
        this idea.



    Question. Unfortunately, peacekeepers sometimes commit acts of 
violence against the people they have been sent to protect. The 
Convention on Privileges and Immunities of the United Nations (Article 
VIII, Section 29) states that the U.N. "shall make provisions for 
appropriate modes of settlement" with respect to disputes. This would 
include claims by civilians hurt by the negligence or intentional acts 
of U.N. personnel or those under their authority.

   It is my understanding that since 1990, the United Nations has not 
        once created a standing claims commission despite 32 Status of 
        Forces Agreements providing for the creation of one in the 
        event of damages. If true, why has the U.N. not taken steps to 
        address this problem?
   With respect to establishing such modes of settlement or claims 
        commissions, do you support the principle that the TCCs 
        responsible for misconduct should pay any damages for harm 
        caused by the officers and soldiers who serve under its flag?


    Answer. It is also our understanding that the U.N. has generally 
settled claims through local claims review boards, and that neither the 
U.N. nor the host countries have created standing claims commissions 
referenced in status of forces agreements (SOFAs) between the U.N. and 
host countries. A local claims review board is an internal board 
established within a U.N. Mission, responsible for settling third party 
claims in country. A local claims review board can also refer a claim 
to U.N. Headquarters for approval or disapproval if the settlement 
amount exceeds the authorized limit of the board. Local claims review 
boards have generally been effective in resolving instances of 
negligence.
    We support the idea that the U.N. should provide appropriate 
victims' assistance related to misconduct by U.N. peacekeepers, and 
understand that the U.N. is currently working on a policy to devise 
such a system of assistance in the context of sexual exploitation and 
abuse (SEA) cases.
    Abuses and violations committed by peacekeepers are unacceptable, 
undermine a peacekeeping mission's ability to carry out its mandate, 
and damage a mission's relationship with the community.


    Question. Does the U.N. system have in place protocols to disbar 
contractors who have been found by a competent authority to be guilty 
of negligence or intentional acts which have led to injuries or deaths 
among a host country population? If not, should the U.N. establish such 
a system of debarment?

    Answer. Chapter 7 of the United Nations Procurement Manual provides 
for suspension or removal from the U.N.'s Register of Vendors of any 
vendor under formal investigation or sanctioned by a national authority 
for engaging in proscribed practices that include, but are not limited 
to, corruption, fraud, coercion, collusion, obstruction, and other 
unethical practices.
    Chapter 7 of the Procurement Manual also provides for suspension or 
removal of a vendor for actions that create financial, operational, 
reputational and other undue risks to the United Nations. Negligent or 
intentional acts that were harmful to a host country population would 
fall within the realm of proscribed activities for which a contractor 
would be removed the U.N.'s list of eligible vendors.

                                  [all]
</pre></body></html>
